<html>
<title> - INTERMEDIATE RANGE NUCLEAR FORCES TREATY</title>
<body><pre>[Senate Hearing 116-220]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-220
 
                          INTERMEDIATE RANGE 
                          NUCLEAR FORCES TREATY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 15, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                            ______                      


                 U.S. GOVERNMENT PUBLISHING OFFICE 
40-682 PDF                WASHINGTON : 2020                          
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas

              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Thompson, Hon. Andrea L., Under Secretary for Arms Control and 
  International Security, U.S. Department of State, Washington, 
  DC.............................................................     6
    Prepared Statement...........................................     7

Trachtenberg, Hon. David J., Deputy Under Secretary for Policy, 
  U.S. Department of Defense, Washington, DC.....................    11
    Prepared Statement...........................................    13

              Additional Material Submitted for the Record

Washington Post Article Dated January 23, 2019 Entitled ``Can 
  Saudi Arabia Produce Ballistic Missiles? Satellite Imagery 
  Raises Suspicions.''...........................................    40

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator James Risch............................................    43

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Benjamin L. Cardin.....................................    44

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Tim Kaine..............................................    45

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Edward J. Markey.......................................    45

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Jeff Merkley...........................................    49

Responses of Hon. David J. Trachtenberg to Questions Submitted by 

  Senator James Risch............................................    50

Responses of Hon. David J. Trachtenberg to Questions Submitted by 

  Senator Benjamin L. Cardin.....................................    51

Responses of Hon. David J. Trachtenberg to Questions Submitted by 

  Senator Tim Kaine..............................................    53

Responses of Hon. David J. Trachtenberg to Questions Submitted by 

  Senator Edward J. Markey.......................................    53

                                 (iii)        


                           INTERMEDIATE-RANGE

                         NUCLEAR FORCES TREATY
                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Johnson, Gardner, 
Romney, Barrasso, Paul, Cruz, Menendez, Shaheen, Murphy, Kaine, 
and Markey.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Today we are going to talk about arms control, and we have 
very distinguished witnesses to help us through this. I have a 
semi-brief opening statement to make. I will then turn it over 
to Senator Menendez, and we will then talk about questioning 
from the committee and do a round of questions.
    So with that, we are going to talk about arms control 
today, and treaties, particularly arms control treaties, which 
can be very, very successful but only--and only--if all parties 
have a common objective and the parties act in good faith. Arms 
control is only successful when treaties are honored, and 
confidence is only achievable when countries behave in a 
responsible and transparent way.
    It is in this context that I commend the administration for 
its actions regarding Russia's blatant violation of the 
Intermediate-Range Nuclear Forces Treaty. I also want to thank 
our NATO allies for their strong support for the U.S. decision 
to withdraw.
    For the past several years, the Russian Government has 
systematically violated the INF Treaty and deployed systems 
that undermine the stability that the treaty helped create. 
Violations of treaty obligations must have consequences. These 
violations have gone on for a long period of time. They were 
classified for a period of time, and those of us who wanted to 
bring these to the public's attention were very frustrated by 
the fact that we could not talk about them because they were 
classified, particularly in light of the fact that those 
violations help people think through what our relationship 
should be with a country and how we should or should not deal 
with the ongoing treaty negotiations, which were ongoing at 
that time.
    Russia's violations are part of a pattern of aggressive and 
dishonest behavior that must be taken into account in any 
future arms control efforts. We have had four agreements with 
Russia: New START, the INF Treaty, the Open Skies Treaty, and 
the Chemical Weapons Convention. Russian compliance is 
problematic across the board with all of these treaties.
    On the Open Skies Treaty, Russia continues to illegally 
limit our ability to overflight key military areas. Russia 
changes the subject when it comes to the Chemical Weapons 
Convention. They have yet to take responsibility for killing a 
British citizen with an undeclared nerve agent on British soil 
last year or for their complicity when their ally, Bashar 
Assad, used chemical weapons against Syrian civilians.
    Given this behavior, the U.S. needs to consider more 
carefully than ever now how we engage Russia regarding any 
treaty.
    Russia is modernizing and growing the size and capacity of 
its nuclear forces. Putin's arsenal of non-strategic nuclear 
weapons is being revamped to make it more useful not just for 
deterrence but for coercion in support of Russia's aggressive 
foreign policy.
    Russia currently possesses roughly 2,000 such tactical 
nuclear warheads and refuses to share vital information on 
these weapons, which creates an unacceptable level of ambiguity 
about these capabilities.
    Russia also claims to be enhancing their strategic systems, 
developing a new high-yield warhead and new delivery systems 
that can carry multiple warheads. Why would Russia build a new 
ballistic missile that can carry more heads than allowed by New 
START unless they have no regard for New START and no intent of 
complying with New START?
    In fact, Russia's modernization is almost 70 percent 
complete. By comparison, U.S. modernization is well behind 
that.
    Even further, Russia is developing new systems like a 
nuclear underwater drone, a nuclear-armed intercontinental 
range cruise missile, and air-launched cruise missiles. These 
systems are limited by New START, but Russia rejects even the 
assertion that they are limited. This is not good faith.
    These improvements present significant threats to strategic 
stability of the United States and our allies.
    Going forward, it is important for Putin to understand that 
we will not allow actions to go unchallenged and that alliance 
unity on these topics remains strong.
    At the same time, the world has changed in the past decade, 
and U.S. policy must recognize China's increasingly aggressive 
pursuit of regional challenges and to U.S. interests. China's 
growing capabilities and its even greater lack of transparency 
create uncertainty about Chinese intentions in the Pacific and 
raise important questions about the role of U.S.-extended 
nuclear deterrence in the region.
    Reports indicate China is on track to double its nuclear 
stockpile over the next decade. Last year, they launched more 
ballistic missiles for testing and training than the rest of 
the world combined. More troubling are China's plans to deploy 
tactical nuclear weapons while constantly refusing to even 
discuss arms control.
    This threat is real, and I am disappointed by those who 
argue that including China in arms control discussions is a 
poison pill to new agreements with Russia. The opposite is 
true. A responsible approach to arms control must account for 
all nuclear threats to the United States, and it is 
indisputable that Russia is no longer the only nuclear threat 
to the United States and to global stability.
    Arms control is a critical part of addressing these 
threats, but a strong, modern U.S. nuclear deterrent is also 
essential to strategic stability. As we consider new approaches 
to arms control, Congress needs to fully fund, and the 
administration needs to vigorously implement, all programs 
needed to modernize our nuclear forces.
    In closing, I repeat that the challenges to arms control 
emanate not from the U.S. but from the numerous and continuing 
Russian violations, from growing Russian and Chinese 
capabilities, and from China's unwillingness to even discuss 
these topics. Arms control is not an end in and of itself and 
cannot protect the United States if our treaty partners refuse 
to abide by their treaty obligations and do not act in good 
faith.
    I thank our witnesses for joining us today and look forward 
to hearing their clear-eyed assessment of the current status of 
these issues and the administration's views on future 
approaches.
    With that, I will turn it over to the ranking member, 
Senator Menendez, for his opening remarks on arms control.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Before I turn to the topic of the hearing, I feel compelled 
to address the Trump administration's latest actions on Iraq 
and Iran.
    This morning I woke up to the news that the administration 
announced it was ordering the departure of U.S. embassy staff 
from our embassy in Baghdad and our consulate in Erbil.
    There are only two reasons for ordering their departure: we 
have credible intelligence that our people are at risk or in 
preparation for military action in Iran.
    The Senate Foreign Relations Committee is charged with 
writing the laws that authorize the use of military force and 
of the oversight of the State Department and the safety of 
those who work there. And yet, the Trump administration has not 
provided any information to this committee on the intelligence 
behind their decisions or what they plan to do in Iraq or Iran. 
And I have repeatedly reminded the administration of its 
responsibilities to this committee.
    Mr. Chairman, I hope you will join me in asking the 
administration to immediately provide this committee with a 
briefing on the decision to order the departure of the embassy 
staff, the intelligence on what Iran may be planning to do, and 
any plans to go to war with Iran.
    I would add that while a briefing for all Senators is 
rumored for next week, that is no substitute for directly 
briefing the committee today when there is clearly actionable 
intelligence available. Nor is that timeline itself acceptable.
    Finally, I want to make two points absolutely clear on the 
policy towards Iran.
    First, we need a diplomatic surge on Iran to meaningfully 
engage our allies and Iran in serious negotiations to end its 
pathway towards nuclear weapons and its malign activities.
    And second, Congress has not authorized war with Iran, and 
the administration, if it were contemplating military action 
with Iran, it must come to Congress to seek approval.
    I have spent the better part of two decades focused on 
stopping Iran's quest for a nuclear weapon and attacks against 
our allies, including Israel. There is a right way to pursue 
that policy and that goal, which I believe we all share and I 
know that the chairman and I in that respect have common cause. 
And there is a wrong way to do it, a way that endangers our 
allies, our interests, and our people. And I am deeply 
concerned the administration is pursuing a policy that leads us 
to that wrong way.
    Now, let me thank you, as it relates to this hearing, for 
convening this on the future of arms control policy. It seems 
especially appropriate to hold this hearing on a day that we 
are honoring Senator Richard Lugar, whose civil and effective 
leadership of this committee is a model that we should all 
strive to follow in our efforts to advance U.S. interests 
around the world. Our country and the entire world are safer 
thanks to Senator Lugar, as well as his ranking Democratic 
colleague, Senator Sam Nunn, and their collective efforts to 
promote sustained tough diplomacy that led to the destruction 
of thousands of nuclear warheads in the former Soviet Union.
    Under Secretary Thompson and Deputy Under Secretary 
Trachtenberg, we welcome you back to committee, but I hope you 
will be more forthcoming than you were the last time you 
visited.
    In September, you testified that Russia continued to 
violate the INF Treaty. You provided no indication that the 
United States was immediately considering withdrawing from the 
treaty nor that there were any near-term military operational 
benefits for doing so. Yet, just one month later, after a 
campaign rally, President Trump suddenly announced, without any 
notice or consultation with the Senate, that the United States 
was unilaterally withdrawing.
    Unfortunately, this is a part of a troubling pattern with 
the State Department failing to comply with fundamental legal 
congressional requirements.
    Just last month, the administration submitted an 
unclassified version of the annual Arms Control Reliance Report 
which, quote, assesses the U.S.'s and other nations' compliance 
to all arms control nonproliferation and disarmament agreements 
that the United States is a party to. This year's report fails 
to even mention a variety of critical arms agreements and was 
only 12 pages long in comparison to last year's report which 
was 45 pages. In your submission to Congress, the Department 
promises to provide a longer version of the report after a 
declassification process has occurred. That is unacceptable. 
The administration has legal requirements it must fulfill.
    Given the lack of strategic forethought and planning 
apparent in the administration's hasty decision to withdraw 
from the INF Treaty, it is vital that the U.S. Government 
reemphasizes effective arms control as an integral part of 
nuclear deterrence and strategic stability. That is why, along 
with Senator Reed and Senator Warner, I introduced the New 
START Policy Act of 2019, which calls for a 5-year extension of 
the treaty until February 2026 unless the President determines 
Russia is in material breach of the treaty.
    I was very pleased to see a similar bipartisan bill 
introduced in the House cosponsored by House Foreign Affairs 
Chairman Engel and his Republican counterpart, Ranking Member 
McCaul. And I am hopeful we can forge a similar bipartisan 
approach to arms control here in the Senate.
    Extending New START would be, in my mind, an easy decision.
    Intelligence officials have explained how the treaty's 
verification regime, including short-notice and on-site 
inspections at military bases and facilities, provide the 
United States with important insight into Russia's core 
capabilities, including its strategic nuclear delivery systems, 
warheads, and facilities. The Commander of the United States 
Strategic Command, General John Hyten, testified that he was a 
big supporter of New START and that the treaty provides, quote, 
insights into the Russians' capabilities which are hugely 
beneficial to him.
    It is very difficult to understand why the administration 
would discard the robust constraints, transparency, and 
verification measures of New START with nothing to replace 
them.
    Finally, I am looking forward to hearing additional details 
on two other important issues.
    First, we continue to wait for the imposition of chemical 
weapons sanctions on Russia for the assassination attempt on 
Sergei and Yulia Skripal in the United Kingdom. These sanctions 
are more than 5 months overdue, and I would like to know why.
    Second, I was pleased to hear that the Secretary raised 
election meddling in his recent meeting with President Putin, 
and I hope you will provide some insights into whether the 
Secretary discussed the administration's new effort to bring 
both China and Russia into a new arms control effort.
    To be clear, I welcome the administration's efforts to 
expand the scope of arms control negotiations.
    However, given the challenges inherent in reaching new 
agreements with Russia and China, I strongly believe the 
limitations and verification measures of New START must remain 
in place while any such negotiation occurs, and this new 
initiative must not serve as an excuse for suddenly withdrawing 
from another international agreement. If new agreements can be 
reached, they should add, not subtract from our existing arms 
control architecture.
    So I look forward to the witnesses' testimony and our 
discussion today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Like you, I look forward to hearing our witnesses testify.
    I respectfully disagree regarding the 5-year extension. I 
was opposed to the New START when it was enacted, as you will 
recall. I remain opposed to it, and under current 
circumstances, I cannot fathom why we would extend it another 5 
years.
    With that, we have Andrea Thompson, Under Secretary for 
Arms Control and International Security. Ms. Thompson has been 
leading State Department efforts on arms control for more than 
a year. She previously served as Deputy Assistant to the 
President and National Security Advisor to the Vice President. 
Ms. Thompson also served more than 25 years in the United 
States Army and retired with the rank of colonel. We look 
forward to her perspective on how the State Department's arms 
control efforts have progressed and what steps the 
administration is considering for the future.
    And with that, Ms. Thompson, the floor is yours.

STATEMENT OF HON. ANDREA L. THOMPSON, UNDER SECRETARY FOR ARMS 
 CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Thompson. Thank you very much, Chairman Risch, Senator 
Menendez, and distinguished members of the committee. Thank you 
for hosting this hearing and welcoming me here today. I look 
forward to continuing our discussion from September when I had 
the honor of appearing before this committee. There have been 
important developments, none more so than the U.S. suspension 
of its obligations and 6-month notice of withdrawal for the 
Intermediate-Range Nuclear Forces Treaty, or INF Treaty, in 
response to Russia's longstanding violation.
    I would like to begin by recalling a passage from the 2018 
Nuclear Posture Review, which states that progress in arms 
control is not an end in and of itself and depends on the 
security environment and the participation of willing partners. 
For arms control to be an effective tool, it must advance U.S., 
allied, and partner security, be verifiable and enforceable, 
and include partners that comply responsibly with their 
obligations.
    As you know, Moscow continues to violate a series of 
obligations that undermine the trust the United States can 
place in treaties with Russia, including some that have served 
global security interests for years. The United States has 
invested 6 years of diplomatic effort to engage the Russians, 
including at the highest levels, to convince them to return to 
compliance with the INF Treaty. I personally have been involved 
in many of these engagements, including leading a U.S. 
interagency delegation to Geneva this past January to meet with 
Russian experts.
    In sum, since I last addressed the committee, I have met 
with Russian counterparts six times and more than 20 times with 
NATO allies and partners. I can assure you that throughout our 
years of efforts, we have stressed that Russia's continuing 
violation and failure to take concrete steps to return to 
compliance create an untenable situation whereby the United 
States complied with the INF Treaty, while Russia violated it. 
Our allies have been united that Russia's actions are to blame 
for the pending demise of the INF Treaty.
    If Russia fails to return to full and verifiable compliance 
before August 2nd, our decision to withdraw will stand and the 
treaty will terminate. Russia will bear sole responsibility.
    Going forward, this administration will continue to work 
with Congress and our allies to deny Russia any military 
advantage from its development of ground-launched intermediate-
range missiles.
    Turning now to the New START treaty, we are implementing 
under the treaty and verifying Russia's compliance. The 
administration has not made any decision on a potential 
extension of New START and will continue to consult with 
Congress as this administration determines next steps.
    Central to the administration's review is whether New START 
extension is in the U.S. national interest and how the treaty's 
expiration would impact U.S. national security in the 
deteriorating security environment where Russia is developing 
new strategic offensive arms and expanding its non-strategic 
nuclear forces and China is modernizing and building up its 
nuclear forces.
    China currently benefits from having the two largest 
nuclear powers restrained while it can pursue competition on 
its own terms. China's lack of transparency regarding the scope 
and scale of its nuclear modernization program also raises 
questions regarding its future intent.
    As President Trump and Secretary Pompeo have highlighted, 
China's growing capabilities, coupled with its increasingly 
assertive posture, pose growing threats to the United States 
and its allies and partners.
    We need a new era of arms control to address new and 
emerging threats that reflect modern reality. Make no mistake, 
we are in an era of revived great power competition. While we 
seek to bring Russia and China to the arms control table to 
deliver meaningful results, we will be relentless in our 
efforts to advance U.S. and allied interests, ensure our 
security, and deny our adversaries advantages.
    Modern and effective U.S. nuclear capabilities as called 
for in the NPR are critical. As stated in the NPR's preface, 
ensuring our nuclear deterrent remains strong will provide the 
best opportunity for convincing other nuclear powers to engage 
in meaningful arms control initiatives.
    I thank you all for convening this important hearing and 
look forward to your questions.
    [The prepared statement of Ms. Thompson follows:]

             Prepared Statement of Hon. Andrea L. Thompson

    Chairman Risch, Senator Menendez, and distinguished members of the 
Committee--thank you for hosting this hearing and welcoming me here 
today. I look forward to continuing our discussion from last September, 
when I had the honor of appearing before this Committee. There have 
been important developments, none more so than the U.S. suspension of 
its obligations and announcement of withdrawal from the Intermediate-
Range Nuclear Forces (INF) Treaty in response to Russia's longstanding 
violation.
    I would like to begin by reminding everyone of a passage from the 
2018 Nuclear Posture Review (NPR), which states that ``progress in arms 
control is not an end in and of itself, and depends on the security 
environment and the participation of willing partners.'' The value of 
any agreement is derived from our treaty partners maintaining 
compliance with their obligations, and avoiding actions that result in 
mistrust and miscalculation. As you know, Russia has taken actions over 
the past several years that have posed real challenges to our bilateral 
relationship and deepened the deficit of trust we have with Russia. In 
the arms control sphere, Moscow continues to violate a series of 
obligations that undermine the trust the United States can place in 
treaties with Russia, including some that have served global security 
interests for years. Russia is not alone in challenging U.S. interests. 
As President Trump and Secretary Pompeo have highlighted, China's 
growing capabilities, coupled with its increasingly assertive posture, 
pose growing threats to the United States and its allies and partners.
    The United States must look at the world as it is, not as the world 
we wish to see. The 2018 NPR detailed the deteriorating security 
environment we face. Effective arms control can help us address this 
worsening security environment, but for it to be an effective tool, 
arms control must advance U.S., allied, and partner security; be 
verifiable and enforceable; and include partners that comply 
responsibly with their obligations.
    At times, arms control measures have benefited the United States by 
providing mutual transparency and predictability, constraining certain 
destabilizing weapons, and enhancing stability. With Russia, we want to 
continue to leverage these benefits by seeking to utilize a strong 
military deterrent in combination with arms control to maintain 
stability. While we have a long established arms control relationship 
with Russia, China's continued lack of willingness to engage in 
bilateral discussions on nuclear risk reduction, confidence building, 
and arms control, coupled with its plans to grow its nuclear force, 
requires our attention.
    In this environment, the President has charged his national 
security team to think more broadly about arms control, both in terms 
of the countries and the weapons systems involved. The President has 
made clear that he wants arms control agreements that reflect modern 
reality--we should pursue serious arms control that delivers real 
security to the American people and our allies. In order to achieve 
this, Russia and China must be brought to the table. The world has 
moved on from the Cold War and its bilateral treaties that cover 
limited types of nuclear weapons or only certain ranges of missiles. 
Moving into the future, we need to be creative and agile in how we 
approach and manage strategic competition, and that includes an 
evaluation of where we stand with respect to our arms control 
agreements, and their interrelationship with our deterrence and defense 
requirements as well as those of our allies and partners.
    In this testimony, I will discuss developments with regard to the 
INF and New START Treaties, and will close with a few remarks regarding 
the outlook for arms control in a changing security environment.
                             the inf treaty
    I will start with the INF Treaty, and specifically how our 
diplomatic process has played out. First, I would point out what 
appears to be Russia's longstanding desire to get out of the INF 
Treaty. As early as 2004, senior Russian officials approached the 
United States about mutually withdrawing from the INF Treaty. When the 
United States did not respond the way Russia wanted, the United States 
assesses that the Russian government began covert development of an 
INF-noncompliant missile, the SSC-8, probably in the mid-2000s.
    The United States started privately raising concerns with the 
Russians about their INF Treaty noncompliance in 2013 before publicly 
announcing Russia's violation in the 2014 version of the Department of 
State's annual Report on Adherence to and Compliance with Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments. Russia 
initially denied, for several years, that the missile described by the 
United States existed before acknowledging in late 2017 that the 
missile existed but claimed it could not fly to ranges prohibited by 
the Treaty.
    The United States has invested 6 years of diplomatic effort to 
engage the Russians and convince them to return to Treaty compliance. 
U.S. officials under two administrations have raised concerns on 
repeated occasions and at various levels and departments within the 
Russian Government, including at the highest levels, and provided 
detailed information to Russia outlining its violation. U.S. efforts 
continue, numbering more than 30 engagements with Russian officials, 
six-expert level meetings with Russia, more than a dozen meetings 
within NATO regarding the INF issue, and Treaty-compliant research and 
development on potential U.S. conventional, ground-launched, 
intermediate-range systems to show Russia the cost of endangering the 
INF Treaty. Senators, I assure you that diplomatic engagement remains 
my priority. Since I last addressed the Committee in September, I have 
met with Russian counterparts six times; and more than 20 times with 
NATO allies and partners. Thanks to this engagement, we had unanimous 
Allied support for our decision to notify Russia of our intent to 
withdraw from the INF Treaty. Allies continue to fully support our 
position that Russia must return to full and verifiable compliance to 
preserve the INF Treaty.
    Throughout our years of efforts, we stressed that Russia's 
continuing violation and failure to take concrete steps to return to 
compliance created an untenable situation whereby the United States 
complied with the INF Treaty while Russia violated it. On December 4, 
2018, the Secretary of State declared Russia's continuing violation to 
be a material breach of the Treaty and announced the United States 
would suspend its obligations under the Treaty as a remedy in 60 days 
unless Russia returned to full and verifiable compliance. I led a U.S. 
interagency delegation to Geneva on January 15 to meet with Russian 
experts led by Russian Deputy Foreign Minister Ryabkov. Instead of 
taking advantage of this opportunity, Russia doubled down on denying 
its violation and making false allegations against the United States. 
As a result of Russia's continued refusal to correct its noncompliance 
and reverse course, the United States on February 2 suspended its 
obligations under the Treaty and provided six-month notice of U.S. 
withdrawal from the Treaty.
    As the Secretary of State has said, remaining in a treaty that 
restricts only one side, while the other side cheats with impunity, 
does not enhance the security interests of the United States and its 
allies. The United States abided by its INF Treaty obligations, while 
Russia cheated. During this time, of course, China, Iran, and North 
Korea, who are not parties to the INF Treaty, were unconstrained to 
develop formidable arsenals of intermediate-range missiles. If we had 
maintained the status quo despite Russia's persistent violation, the 
future credibility of arms control would have been undercut by 
demonstrating that there are no real consequences for cheating on 
agreements.
    During our several years of diplomacy, Russia made clear it 
preferred keeping its INFnoncompliant missile system over preserving 
the Treaty. Rather than move toward compliance, Russia actually moved 
in the opposite direction. Russia went from producing and testing the 
SSC-8 to fielding multiple battalions of the system as of late 2018--a 
system that poses a direct threat to European and global security. Even 
as recently as this February, President Putin publicly endorsed 
converting a sea-based, intermediate-range missile of the Kalibr class 
into a ground-launched missile, which would be inconsistent with the 
INF Treaty. This is a clear sign that Russia has no intent to try and 
save the Treaty prior to August 2, the effective date of U.S. 
withdrawal.
    We have been clear to the Russians that returning to compliance 
requires the verifiable destruction of all SSC-8 missiles, their 
launchers, and associated support equipment. If Russia fails to return 
to full and verifiable compliance before August 2, our decision to 
withdraw will stand, and the Treaty will terminate. Russia will bear 
sole responsibility for the Treaty's end.
    Our allies are united that Russian actions are to blame for the 
pending demise of the INF Treaty. When the United States declared 
Russia in material breach back in December, NATO strongly supported the 
announcement and agreed ``the situation whereby the United States and 
other parties fully abide by the Treaty and Russia does not, is not 
sustainable.'' Allies, again, ``fully supported'' the U.S. suspension 
in February. NATO Secretary General Stoltenberg has reiterated that ``A 
treaty that is respected by only one side cannot be effective and will 
not keep us safe. If a treaty no longer affects the reality on the 
ground, then it is nothing more than a piece of paper.''
    If the Russians do not return to compliance with the INF Treaty and 
we find ourselves in a world without its restrictions, we must be ready 
to ensure U.S. and allied security. To ensure that our adversaries 
receive no military advantage, the United States is developing its own 
intermediate-range, conventionally-armed, ground-launched missile 
systems. To reiterate, these systems are conventional only--not 
nuclear. This research and development is designed to be reversible, 
should Russia return to full and verifiable compliance before August 2. 
Because the United States has been abiding by the Treaty, we are not in 
a position to immediately field a ground-launched, INF-range system. We 
are committed to consulting with allies as we move forward, although it 
is too early to discuss any potential basing at this stage.
    If Russia fails to return to full and verifiable compliance, the 
result will be the demise of the Treaty. As Secretary Pompeo stated on 
February 2, ``Regrettably, the INF Treaty is no longer effective due to 
Russia's ongoing material breach.'' The deployment of multiple 
battalions of SSC-8 missiles by Russia poses a threat to international 
peace and security which this administration takes very seriously. 
Going forward, this administration will continue to work with Congress 
and our allies to deny Russia any military advantage from its 
development of ground-launched intermediate-range missiles.
                          the new start treaty
    We are implementing the New START Treaty and verifying Russian 
compliance. In February 2018, each country confirmed its compliance 
with the Treaty's central limits on ICBMs, SLBMs, and heavy bombers and 
their associated warheads and launchers.
    I know this Committee has sought the Trump administration's view of 
extending the New START Treaty, which is scheduled to expire February 
5, 2021. While some might argue that there is an urgent need to extend 
right now, we must be careful to assess all of the complexities and 
changes in the evolving security environment since the Treaty was 
signed in 2010. To be direct: the administration has not made any 
decision on a potential extension of New START. Since there are many 
aspects of our review, I will take time now to walk through some of the 
considerations.
    First, while Russia is complying with the New START Treaty, 
Russia's strategic forces are currently undergoing a comprehensive 
modernization in their force structure, operations, and planning. In a 
March 1, 2018 speech, President Putin spoke about the development of 
five new nuclear-armed systems: a nuclear-powered, nuclear-armed cruise 
missile; a nuclear-powered unmanned underwater vehicle with 
intercontinental range; an air-launched ballistic missile; a ``gliding 
wing unit''; and a heavy ICBM. Russian official commentary and media 
reports indicate that some of these systems could be fielded before New 
START is scheduled to expire in February 2021. We assess at least two 
of them, the Sarmat heavy ICBM and Avangard hypersonic system would 
count as existing types and be subject to New START at the appropriate 
point in their development cycle. Further, we assess that the other 
three systems meet the U.S. criteria for what constitutes a ``new kind 
of strategic offensive arms'' for purposes of New START. The United 
States is monitoring the development of these systems and has raised 
them with Russian officials. Meanwhile, as was noted in the New START 
Resolution of Ratification, Russia's large stockpile of nonstrategic 
nuclear weapons is not subject to the Treaty's limits and verification 
regime, and Russia potentially views this stockpile as providing 
coercive advantage in a crisis or at lower levels of conflict.
    Second, we cannot ignore Russia's record of being a serial violator 
and selective implementer of the arms control obligations and 
commitments that it undertakes. Russia has violated the Chemical 
Weapons Convention, the Open Skies Treaty, the Conventional Forces in 
Europe (CFE) Treaty, and the INF Treaty. Its actions have raised 
serious concerns about its compliance with the Biological Weapons 
Convention. It also has acted inconsistent with its Vienna Document 
commitments and the Presidential Nuclear Initiatives of 1991-1992. 
Russia also professes to support arms control for preventing an arms 
race in outer space while developing anti-satellite systems.
    Third, our decision on extension will carefully consider U.S. and 
allied security needs. When the Treaty was negotiated, we were in a 
more benign security environment, where relations between the great 
powers were less tense and mistrustful. However, in the intervening 
years, the security environment deteriorated significantly, and 
increased uncertainty and risk pervade. Russia's malign actions, 
including invading and seeking to annex part of Ukraine's territory, 
have contributed substantially to this deterioration. We are carefully 
considering how our deterrence requirements are shaped by the 
geostrategic realities of today and the future.
    Finally, China's lack of transparency regarding the scope and scale 
of its nuclear modernization program raises questions regarding its 
future intent. China has been investing considerable resources to 
modernize and expand its nuclear arsenal, which is resulting in an 
increasingly diverse force with next generation missiles, submarines, 
and a stealthy, long-range strategic bomber. China also appears to be 
considering how new types of weapons might fit into its posture, such 
as low-yield capabilities and hypersonics. These developments, paired 
with China's assertive behavior towards its neighbors, disregard for 
binding international norms, and its unwillingness to engage in 
meaningful dialogue with the United States on issues of nuclear weapons 
policy and risk reduction, raise the risks of miscalculation, and 
instability. The United States has tried to raise mechanisms with the 
Chinese to discuss these issues but our efforts have so far been 
rebuffed. China currently benefits from having the two largest nuclear 
powers restrained while it can pursue competition on its own terms. 
That status quo is unacceptable.
    Central to the U.S. review is whether a New START extension is in 
the U.S. national interest and how the Treaty's expiration would impact 
U.S. national security in the deteriorating security environment, where 
Russia is developing new strategic and nonstrategic offensive arms and 
China is modernizing and building up its nuclear forces. We will 
continue to consult with Congress as this administration determines its 
next steps.
                               conclusion
    There is much work ahead to ensure that our arms control agreements 
deliver the best security to the United States and our allies and 
partners. The value of any agreement is derived from our treaty 
partners maintaining compliance with their obligations, and avoiding 
actions that result in mistrust and miscalculation. Russia, 
unfortunately, has created a trust deficit that leads the United States 
to question Russia's commitment to arms control. Done correctly, arms 
control will manage and stabilize our strategic relationship and 
promote greater transparency and predictability in how our countries 
address weapons of mass destruction issues and policies. The President 
and the Secretary of State have been clear: we need a new era of arms 
control to address new and emerging threats. In the current security 
environment, we also must consider how we can bring other countries 
into our agreements so that the United States is not limited while 
others, such as China, are unconstrained.
    Make no mistake, we are in an era of revived Great Power 
competition. While we seek to bring Russia and China to the arms 
control table to deliver meaningful results, we will be relentless in 
our efforts to advance U.S. and allied interests, ensure our security, 
and deny our adversaries advantages. Modern and effective U.S. nuclear 
capabilities as called for in the NPR are critical. As the NPR's 
preface stated: ensuring our nuclear deterrent remains strong will 
provide the best opportunity for convincing other nuclear powers to 
engage in meaningful arms control initiatives. I thank you for 
convening this important hearing, and look forward to your questions.

    The Chairman. Thank you, Ms. Thompson.
    We will now turn to Mr. Trachtenberg. Mr. Trachtenberg is 
Deputy Under Secretary of Defense for Policy. Having served in 
various roles throughout the Department of Defense, Mr. 
Trachtenberg has deep experience and expertise with NATO, 
Europe, Russia, and Eurasia nuclear forces and arms control. He 
is well suited to provide a comprehensive assessment of the 
current dynamics surrounding arms control and to share with us 
the actions that the Department of Defense is taking in this 
area.
    Mr. Trachtenberg, the floor is yours.

STATEMENT OF HON. DAVID J. TRACHTENBERG, DEPUTY UNDER SECRETARY 
     FOR POLICY, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Trachtenberg. Chairman Risch, Ranking Member Menendez, 
and distinguished members of the committee, thank you for the 
opportunity to testify on the current state of arms control.
    For decades, the United States has led the world in efforts 
to reduce the role and number of nuclear weapons. Overall, the 
U.S. nuclear weapons stockpile has drawn down by more than 85 
percent from its Cold War high. In addition, the United States 
is committed to its long-held arms control nonproliferation and 
nuclear security objectives, particularly our commitment to the 
goals of the Treaty on the Non-Proliferation of Nuclear 
Weapons.
    Unfortunately, Russia and China have chosen a different 
path and have increased the role of nuclear weapons and their 
strategies and actively increased the size and sophistication 
of their nuclear forces.
    For this reason, a robust and modern U.S. nuclear deterrent 
helps ensure that the United States can deter a nuclear attack 
and large-scale conventional warfare between nuclear-armed 
states. It also allows us to negotiate from a position of 
strength.
    Arms control can contribute to U.S. security by helping to 
manage strategic competition among states, and we are committed 
to meaningful arms control that decreases the chances of 
misperception and miscalculation that can lead to conflict.
    The 2018 Nuclear Posture Review reflects the Department of 
Defense's strategic priority to maintain a safe, secure, 
survivable, and effective nuclear deterrent. The NPR also 
declares the U.S. commitment to arms control efforts that 
advance U.S., allied, and partner security, are verifiable and 
enforceable, and include partners that comply responsibly with 
their obligations.
    The current security environment makes arms control 
extremely challenging in the near term. Any future arms control 
arrangement must be pursued in the context of the broader 
security environment, which has changed significantly in the 
past decade.
    For example, Russia continues to prioritize modernizing its 
nuclear forces, including every leg of its strategic triad. 
Just this past Monday, President Vladimir Putin reportedly 
announced that 82 percent of Russia's strategic nuclear forces 
have now been upgraded. And according to the Russian defense 
minister, this figure will reach 90 percent by 2020.
    In March 2018, Putin announced that Russia is developing 
even more new nuclear weapons capabilities. Moreover, Russia is 
modernizing and expanding an active stockpile of approximately 
2,000 non-strategic nuclear weapons that can be deployed on 
ships, bombers, tactical aircraft, and with ground forces.
    China continues its expansive military modernization, 
including deploying advanced sea-based weapons, developing a 
new generation of road-mobile missiles, improving its silo-
based weapons, testing hypersonic glide vehicles, and 
developing a nuclear-capable next generation bomber.
    These developments make arms control more complex and 
challenging than nearly a decade ago when the New START treaty 
was signed.
    While we assess Russia to be in compliance with the central 
limits of New START, the history of Russia's arms control 
behavior is sobering. And I will not recount here Russia's many 
violations of its treaty obligations and other political 
commitments.
    It is instructive, however, that only a month after the 
United States and Russia reached the central limits on 
strategic nuclear systems prescribed by the New START treaty, 
President Putin with great fanfare announced Russia was 
developing new long-range nuclear delivery systems. This is 
troubling given that Russia is also modernizing its growing and 
increasingly capable arsenal of shorter-range, non-strategic 
nuclear weapons which are not covered by New START. Members of 
this committee will remember that Russia's non-strategic 
arsenal was of great concern when the New START treaty was 
ratified and it remains a concern today.
    With respect to the INF Treaty, as a consequence of 
Russia's clear violation and consistent with the sense of 
Congress expressed in the fiscal year 2019 National Defense 
Authorization Act, the United States suspended its obligations 
under the treaty. We also gave notice of our intent to withdraw 
from it. Let me be clear. It is Russia that has abandoned the 
treaty as a result of its violation, and our allies fully 
support these U.S. actions in response.
    Consequently, the United States is moving forward with 
developing conventionally armed ground-launched intermediate-
range missile capabilities. What sort of system we ultimately 
develop will be driven by our assessment of military 
requirements and in consultation with Congress and with our 
allies and partners.
    Let me conclude by stating that our nuclear deterrent is 
the bedrock of U.S. national security and underwrites all U.S. 
military operations and diplomacy across the globe. It is the 
backstop and foundation of our national defense enabling us to 
negotiate arms control agreements from a position of strength. 
The DOD supports pursuing a prudent arms control agenda, which 
could include extending the New START treaty, provided the 
outcome improves the security of the United States and our 
allies and partners.
    The President wants serious arms control that delivers real 
security to the American people and our allies. To achieve 
this, we are thinking more broadly both in terms of the 
countries and weapons systems involved. This may include 
addressing Russia's newer strategic systems not captured by New 
START, seeking to address the significant imbalance in non-
strategic nuclear weapons currently in Russia's favor, and 
encouraging China to join in efforts to increase transparency 
and limit its nuclear weapons ambitions.
    Above all, future arms control agreements must make the 
world more secure and include the willing participation and 
compliance of all parties.
    I thank you for the opportunity to testify and look forward 
to your questions.
    [The prepared statement of Mr. Trachtenberg follows:]

            Prepared Statement of Hon. David J. Trachtenberg

    Chairman Risch, Ranking Member Menendez, and distinguished Members 
of the Committee, thank you for the opportunity to testify on the 
current state of arms control with Russia.
    Today, the United States faces an extraordinarily complex and 
dangerous global security environment, in which the central challenge 
to our prosperity and security is the reemergence of long-term 
strategic competition with China and Russia, which seek to overturn the 
long-standing rules-based international order and change territorial 
borders.
    For decades, the United States led the world in efforts to reduce 
the role and number of nuclear weapons. Successive treaties enabled 
reductions in accountable strategic U.S. nuclear warheads, first to 
6,000, and ultimately to 1,550. Thousands of short-range nuclear 
weapons not covered by any treaty were almost entirely eliminated from 
the U.S. nuclear arsenal. Overall, the U.S. nuclear weapons stockpile 
has drawn down by more than 85 percent from its Cold War high. The 
United States is committed to its long-held arms control, non-
proliferation, and nuclear security objectives, particularly our 
commitment to the goals of the Treaty on the NonProliferation of 
Nuclear Weapons (NPT).
    Unfortunately, Russia and China have chosen a different path and 
have increased the role of nuclear weapons in their strategies and 
actively increased the size and sophistication of their nuclear forces.
    For this reason, a robust and modern U.S. nuclear deterrent helps 
ensure the United States competes from a position of strength and can 
deter nuclear attack and large-scale conventional warfare between 
nuclear-armed states.
                           the nuclear threat
    The 2018 Nuclear Posture Review (NPR) reflects DoD's strategic 
priority to maintain a safe, secure, survivable and effective nuclear 
deterrent. The NPR also declares the United States' commitment to arms 
control efforts that advance U.S., allied, and partner security; are 
verifiable and enforceable; and include partners that comply 
responsibly with their obligations.
    The current security environment makes arms control extremely 
challenging in the near term. Any future arms control arrangement must 
be pursued in the context of the broader security environment, which 
has changed significantly in the past decade.
                                 russia
    For example, over the past decade, Russia has been upgrading the 
capacity of its nuclear forces.
    Russia continues to prioritize high levels of defense spending to 
upgrade its nuclear forces and pursue advanced weapons specifically 
designed to counter U.S. military capabilities. Russia's nuclear 
modernization program covers every leg of its strategic triad and 
includes advanced modern road-mobile and silo-based intercontinental 
ballistic missiles (ICBMs), new submarine- launched ballistic missiles 
(SLBMs), and long-range strategic bombers. According to Russia's TASS 
News Agency, Russian Minister of Defense Sergei Shoigu announced on 
February 21, 2017, that 90 percent of the country's strategic nuclear 
forces will be armed with modern weaponry by 2020.
    In March 2018, only a month after the United States and Russia 
reached the limits on strategic systems established under the New START 
Treaty, President Vladimir Putin announced--with great fanfare--that 
Russia is developing even more new nuclear weapons capabilities, which 
include: 1) an intercontinental-range, nuclear armed hypersonic glide 
vehicle; 2) a maneuverable, nuclear-armed air-launched ballistic 
missile; 3) a long-range, nuclear-powered cruise missile; 4) a nuclear-
powered, nuclear-armed underwater unmanned vehicle; and 5) a new heavy 
intercontinental range ballistic missile, called the SARMAT. President 
Putin, during this same speech, also announced that Russia developed 
new laser weapons systems ``that have been supplied to the troops since 
last year.''
    This past February (2019), President Putin declared that Russia had 
successfully tested nuclearpropulsion engines that would allow the 
nuclear-tipped cruise missiles and underwater drones to travel for 
unlimited distances and evade traditional defenses.
    On top of all of this, Russia is modernizing and expanding an 
active stockpile of approximately 2,000 nonstrategic nuclear weapons--
often referred to as tactical nuclear weapons--that can be deployed on 
ships, bombers, tactical aircraft, and with ground forces. None of 
these are limited by any arms control treaty. In contrast, the United 
States forward deploys to Europe a small number of just one type of 
nonstrategic nuclear weapon--the B61 nuclear gravity bomb--which is 
delivered by dual-capable tactical aircraft. Both the B61 and its 
delivery aircraft are being modernized, but not increased in number.
    Russia's military doctrine emphasizes the coercive nature and 
military value of nuclear weapons. During its military operation 
against Crimea, President Putin was getting ready to raise the alert 
level of Russian nuclear forces, effectively issuing veiled nuclear 
threats to ensure the West did not intervene. Russia has repeatedly 
brandished its nuclear sword towards our NATO Allies in recent years. 
In July 2017, Russian President Putin signed a new naval doctrine that 
stated, ``under conditions of escalation of a military conflict, 
demonstration of readiness and determination to use force, including 
the use of nonstrategic nuclear weapons, is an effective deterrent 
factor.'' And, more recently, in his annual state-of-the-nation address 
on February 20, 2019, Putin said that if Washington deployed 
intermediate-range missiles in Europe, Moscow would target the 
countries hosting the U.S. weapons.
                                 china
    Russia is not the United States' only strategic competitor pursuing 
nuclear increases. China continues its expansive military modernization 
and is focused on establishing regional dominance and expanding its 
ability to coerce U.S. allies and partners.
    China is developing a new generation of mobile missiles, with 
warheads consisting of multiple independently targetable reentry 
vehicles (MIRVs) and penetration aids. In particular, China has 
developed a new road-mobile strategic ICBM and its most advanced 
ballistic missile submarine armed with new submarine-launched ballistic 
missiles (SLBM).
    China has also announced development of a new nuclear-capable 
strategic bomber, indicating China's intent to develop a nuclear triad, 
and has deployed a nuclear-capable precision guided DF-26 intermediate-
range ballistic missile capable of attacking land and naval targets. 
China also tested a hypersonic glide vehicle in 2014.
    China's nuclear forces include a mix of strategic-range systems 
capable of striking the U.S. homeland as well as theater-range forces 
capable of threatening allies, U.S. bases, and forces in the region. As 
China's capabilities both diversify and improve, there is risk China 
may perceive that these weapons provide it with coercive options in a 
crisis or conflict. China's modernization is troubling, and the lack of 
transparency combined with growing Chinese assertiveness in the region 
is one of the most serious risks to regional stability in the Indo-
Pacific.
    China is modernizing and rapidly expanding its already considerable 
nuclear forces, with little to no transparency regarding the scope and 
scale of its nuclear modernization program, and has rebuffed multiple 
U.S. attempts to engage in a meaningful bilateral dialogue on nuclear 
posture and risk reduction issues.
      intermediate-range nuclear forces (inf) treaty developments
    The Intermediate-Range Nuclear Forces (INF) Treaty was once a 
cornerstone of security in Europe. By removing an entire class of 
weapons from the arsenals of the United States and the Soviet Union, 
and subsequently Russia and other Soviet successor states, Europe and 
much of the world enjoyed increased security. But the INF Treaty no 
longer provided that security when Russia intentionally and blatantly 
produced, flight-tested, and fielded a missile system subject to the 
Treaty in direct violation of its legal obligation not to do so. When 
Russia produced the SSC-8 cruise missile and, after getting caught, 
fielded it and refused to destroy it, Russia removed a pillar of 
security for the United States and for our allies. At that point, as a 
practical matter, the INF Treaty bound our hands while Russia decided 
it could freely develop what the treaty prohibited.
    On February 2, 2019, as a consequence of Russia's material breach 
of the INF Treaty, after exhausting every reasonable diplomatic, 
economic, and military effort to persuade Russia to comply with its 
treaty obligations, and consistent with the Sense of Congress expressed 
in the Fiscal Year 2019 National Defense Authorization Act, the United 
States suspended its obligations under the Treaty. We also gave notice 
of our withdrawal from it. As NATO Secretary General Jens Stoltenberg 
asserted, ``Russia is in material breach of the INF Treaty and must use 
the next 6 months to return to full and verifiable compliance or bear 
sole responsibility for its demise.'' Allies fully support the U.S. 
decision to suspend its obligations under INF and withdraw from the 
Treaty.
    To be clear, what prompted the U.S. suspension was not a minor 
violation or an interpretive difference, but Russia's production, 
flight-testing, and fielding of multiple battalions of a ground-
launched cruise missile system specifically banned by the INF Treaty. 
For those concerned that our suspension will cause Russia to develop 
these systems further, I can only say Russia's legal obligations under 
the INF Treaty proved no practical barrier to its pursuit and fielding 
of a banned system in the first place. To assert that Russia is 
reacting to our suspension is to ignore the reality of Russia's conduct 
under the INF Treaty.
    As the President stated in February 2019, the United States is 
moving forward with developing ground-launched, INF-range missile 
capabilities. This is a direct consequence of Russia's violation of the 
INF Treaty. Now that our Treaty obligations are suspended, the United 
States is developing systems that are conventional in nature, and this 
work is designed to be reversible should Russia return to compliance by 
verifiably destroying its INF Treaty-violating missiles, launchers, and 
associated support equipment. What sort of system we ultimately develop 
will be driven by our assessment of military requirements and in 
consultation with Congress and with our allies and partners.
                          the new start treaty
    As stated in the 2018 Nuclear Posture Review, the United States is 
committed to arms control efforts that advance U.S., allied, and 
partner security; are verifiable and enforceable; and include partners 
that comply responsibly with their obligations. As both the 2018 NPR 
and the 2018 NATO Brussels Summit Communique noted, we must take 
account of the prevailing international security environment. In the 
arms control context, this means Russia and, increasingly, China.
    While we assess Russia to be in compliance with the central limits 
of New START, the history of Russia's arms control behavior is 
sobering. In addition to its violation of the INF Treaty, Russia has 
violated the Conventional Armed Forces in Europe Treaty, the Chemical 
Weapons Convention, and the Open Skies Treaty, the Budapest Memorandum, 
and the Helsinki Accords. In addition, Russia is selectively 
implementing the Vienna Document and acted inconsistently with the 
Presidential Nuclear Initiatives.
    Moreover, Russia is modernizing its growing and increasingly 
capable arsenal of shorter-range, nonstrategic nuclear weapons, which 
are also not covered by New START. Members of this Committee will 
remember that Russia's nonstrategic arsenal was of great concern when 
the New START Treaty was ratified, and it remains a concern today.
    That said, the Department supports pursuing a prudent arms control 
agenda, which could include extending the New START Treaty, provided 
the outcomes improve the security of the United States and our allies 
and partners, and effectively help manage strategic competition among 
states.
                      future arms control efforts
    Arms control can contribute to U.S. security by helping to manage 
strategic competition among states, and we are committed to meaningful 
arms control that decreases the chances of misperception and 
miscalculation that can lead to conflict. Arms control agreements are 
not something we sign onto for the sake of arms control. We do so to 
increase our national security.
    The President wants serious arms control that delivers real 
security to the American people and our allies. So the President has 
charged his national security team to think more broadly about arms 
control, both in terms of the countries and the weapons systems 
involved. This may include addressing Russia's newer strategic systems 
that are not captured by New START; seeking to redress the significant 
imbalance in non-strategic nuclear weapons currently in Russia's favor; 
and encouraging China to join in efforts to increase transparency and 
limit its nuclear weapons ambitions. The Department of Defense is 
supporting the National Security Council's efforts to provide the 
President with the best options.
                               conclusion
    As a reliable ally and partner, the United States must advocate for 
effective arms control agreements that make the world more secure and 
include the willing participation and compliance of all parties.
    We appreciate the attention of this Committee and the rest of the 
Congress to these issues, and we will keep you informed of 
developments. Thank you for the opportunity to testify. I look forward 
to your questions.

    The Chairman. Thank you very much, Mr. Trachtenberg.
    We are now going to do a round of questions, and we will 
start with Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Secretary Thompson, if Russia is in compliance, do you 
believe it is in the best of the U.S. to extend New START?
    Ms. Thompson. Senator, thanks for that question.
    I can tell you that under New START at present, both 
countries are in compliance. We continue to have success with 
the treaty. I will also tell you that we are undergoing the 
interagency process on next steps with New START, and we are 
also engaged with our partners and allies. I just got back----
    Senator Menendez. I am sorry. I did not ask you that. I 
asked you a simple question.
    If Russia is in compliance, is it in the best interest of 
the United States to extend New START? Yes or no.
    Ms. Thompson. Too soon to tell, Senator. We are in an 
interagency process. I would tell you that the treaty, as it 
stands, is postured for today. Is the treaty, as it stands, 
postured for the safety and security of the American people for 
the next 5 to 10 years? That I cannot answer today.
    Senator Menendez. Well, what would it need?
    Ms. Thompson. Pardon, Senator?
    Senator Menendez. What would it need to be postured for the 
next 5 or 10 years?
    Ms. Thompson. That is the discussions that we are having 
right now, Senator.
    Senator Menendez. Well, can you give me an insight as to 
what it is?
    Ms. Thompson. I am not going to go through our interagency 
process in public, Senator, but I can tell you that it is a 
rigorous process. We are working with the intelligence 
agencies.
    Senator Menendez. I do not know about an interagency 
process. I mean, you could give insights as to the benchmarks 
that would be needed, and that is not an interagency process. I 
am asking you as a representative of the Department of State 
here, what are the elements of that. And you cannot give it to 
me.
    Have you had a conversation with Russian officials about 
extending the treaty?
    Ms. Thompson. We have had discussions with our Russian 
counterparts on the treaty.
    Senator Menendez. Let me ask you, if New START expires, 
could Russia target the United States with hundreds or perhaps 
even thousands of additional nuclear warheads?
    Ms. Thompson. That is a good question for Russia, Senator.
    Senator Menendez. No. It is a good question for you.
    You know, the disdain that the State Department has when 
they come here--I do not appreciate it. I am asking legitimate 
questions with answers so that I can make policy decisions. I 
am not asking Russia about our national defense. I am asking 
you.
    Ms. Thompson. Yes, Senator. As our staff----
    Senator Menendez. Is it possible that, in fact, if there 
was no New START, that in fact Russia could aim hundreds or 
thousands of new weapons? Is that possible?
    Ms. Thompson. That is a hypothetical, Senator, and I am not 
going to answer that.
    Senator Menendez. Oh, my God.
    Ms. Thompson. That is a hypothetical. That is not a fair 
question.
    Senator Menendez. It is not a hypothetical. It is what 
would happen if we cannot verify what they are doing.
    If Russia expanded its strategic nuclear forces in a post 
New START environment, what would be the implications for U.S. 
nuclear strategy and force posture?
    Ms. Thompson. Again, Senator, if we are looking to the 
future here, it depends where the security situation is in the 
world, what our partners and allies are doing, what our R&D 
efforts through the Department of Defense are doing. That is 
all being taken into consideration now as we look through next 
steps. It is always the safety and security of the American 
people. It is always about the readiness of our military 
forces. It is always the security of our partners and allies in 
those discussions.
    Senator Menendez. I am asking you to help me understand--of 
course, it is the safety and security of the American people. 
We are on common ground on all of that. That goes without 
saying. The question is how does one achieve that at the end of 
the day.
    Let me ask you, Deputy Secretary Trachtenberg. My 
understanding is that China has a total nuclear arsenal of 
approximately 300 weapons. And the United States and Russia 
retain at least 6,000 nuclear weapons in their arsenal, 20 
times the size of China's arsenal. Is that about right?
    Mr. Trachtenberg. Well, there have been a number of 
unclassified estimates, Senator, which clearly show that the 
Chinese nuclear arsenal is significantly less than those of 
either the United States or Russia.
    Senator Menendez. And my understanding is the Department of 
Defense in a recent report stated that China has between 50 to 
75 strategic delivery systems capable of targeting the United 
States. Under the New START treaty, the U.S. and Russia are 
limited to 700 deployed and a total of 800 deployed and non-
deployed strategic nuclear systems. Is that about right?
    Mr. Trachtenberg. That sounds about right, Senator. The 
difficulty we have with respect to China's arsenal is that 
China, among the major nuclear powers, is, I would say, the 
least transparent in terms of the size of its nuclear arsenal.
    Senator Menendez. Well, let me ask you then, if those are 
about right, given this current imbalance, can you explain to 
me under what circumstances China would be willing to sign up 
to a multilateral arms control regime?
    Mr. Trachtenberg. Oh, I think it is very much in our 
national security interests to engage with China on----
    Senator Menendez. I did not ask you that. I am asking you 
what would compel China, who is so disproportionately under-
represented in terms of its nuclear arsenal, to agree to 
something in which we are 20 times larger than them.
    Mr. Trachtenberg. Senator, I cannot speak to what would 
compel China because I cannot get into the mind of the Chinese 
leadership.
    Senator Menendez. We have to be thinking, if we are going 
to negotiate with them, what would induce them. Right?
    Mr. Trachtenberg. Well, I can tell you I do believe that 
China is, of course, modernizing and expanding its nuclear 
arsenal and its nuclear capabilities and does pose a threat to 
the United States. And therefore, under those conditions, it 
seems to me entirely legitimate and proper for us to seek to 
engage China in this endeavor.
    The Chairman. Ms. Thompson, would you agree with me that in 
order for New START to give us the protections that we want and 
expect from it that Russia would have to allow the kind of 
surveillance and the kind of verifications that are given to us 
under the Open Skies Treaty? Would you agree with that?
    Ms. Thompson. Senator, I would agree that the verification 
underscores every treaty we have, and if we have those 
discussions to extend New START or have a different type of New 
START, the verification is the foundation of it. Yes, sir.
    The Chairman. I assume you are familiar with the 
limitations Russia has put on our use of the Open Skies Treaty 
to verify.
    Ms. Thompson. Yes, sir, very familiar with that.
    The Chairman. Would you in your position recommend that we 
have an extension while they continue to limit our ability to 
verify under Open Skies?
    Ms. Thompson. That has been one of the points we have 
raised within our process, Senator. When you look at all the 
other treaties, whether it is CFE, INF, the list that you 
reviewed in the opening remarks, that Russia is in violation of 
those treaties, that is always at the table when we have those 
discussions with our Russian counterparts.
    The Chairman. Big problem.
    Ms. Thompson. It is, sir.
    The Chairman. And especially if you are talking about 
giving them a gratuitous 5-year extension when they are not 
allowing us to verify the things we need to verify under New 
START. Fair statement?
    Ms. Thompson. Fair statement, Senator.
    The Chairman. Thank you.
    Senator Romney, you are up.
    Senator Romney. Thank you, Mr. Chairman.
    Let me just note at the outset that I agree with the 
ranking member about the need for a classified briefing on the 
matters in Iraq and hope that either the entire committee or 
perhaps just the chair and the ranking member would be able to 
have that kind of briefing.
    The Chairman. Thank you, Senator Romney. The chair has had 
that kind of briefing. And in the works is a full briefing of 
the entire United States Senate because this is a very critical 
issue. There is no question about that.
    Senator Romney. Thank you. That gives me a heartened 
feeling. Thank you.
    [Laughter.]
    The Chairman. I want you to be heartened.
    Senator Romney. Yes. Thank you. Thank you.
    Of course, our objective--and we speak about this 
regularly--is to see a world without nukes. But unfortunately, 
what seems to be occurring is a buildup of nuclear capacity, a 
proliferation of nuclear weapons. China seeks, based on my 
reading--I did not mean China. I meant Russia seeks not a 
balanced nuclear capacity to deter action, but it has got 
superiority. You indicated that as much as 90 percent of their 
triad will be modernized by 2021.
    Do you have any sense of what--or can you give us an 
estimate of what percentage of our nuclear triad has been 
modernized and is in a modern state at this stage?
    Mr. Trachtenberg. Sure, Senator Romney. I would say very 
little of our triad has currently been modernized. We have a 
modernization program which, if funded, would allow us to 
modernize all three of the legs, so-called legs, of our 
something triad, the ICBMs, the sub-launched ballistic 
missiles, as well as the bombers.
    We have, in essence, skipped a generation when it comes to 
modernization. The last two cycles of our strategic 
modernization program took place in the 1980s and before that, 
in the 1960s. And so we are well behind where I believe we 
should be in terms of the modernization of our own strategic 
systems which I would assert is essential to maintain our 
nuclear deterrent.
    Senator Romney. I am distressed to hear that and recall 
that at a time when I was one of the vocal opponents of the New 
START treaty, those that were in favor of it said you have to 
understand that we are going to be modernizing our triad. This 
deal we are doing on New START is associated with this 
modernization effort, and we still have not funded that. And as 
a result, we have a nuclear deterrent which is in inferior 
capacity with regard to its modernization than that of a 
potential foe.
    Another area that concerned me during the time that New 
START was being negotiated was the fact that Russia had a very 
dramatic lead in terms of non-strategic nukes. And I made the 
point that we had a lead on strategic. We had 2,500 strategic 
nuclear weapons. They had 1,500. We agreed to make 1,500 the 
new limit. So we cut out 1,000 of ours and they did not change 
a thing. And the argument was made, well, we will move on to 
the non-strategic next.
    Have we moved on to the non-strategic weapons? Have we been 
able to limit their stockpile of non-strategic nuclear weapons?
    Mr. Trachtenberg. We have not, Senator. Despite our efforts 
to engage the Russians in discussions with respect to their 
non-strategic nuclear forces, they have been unwilling to 
discuss that.
    I would say, if I might, while we did reduce--you are 
absolutely correct. We did reduce to meet the New START levels. 
The Russians did take an action as well. The action they took 
was they built up their levels of nuclear forces in order to 
meet the limits of the New START treaty. When New START was 
signed, they were below the limits, we were above the limits. 
And therefore, this was a treaty that required us to reduce 
while simultaneously it allowed the Russians to increase.
    Senator Romney. Yes. One more reason that I was very, very 
opposed to the agreement as it was negotiated.
    One more matter in that regard. I just wanted to raise a 
question, and that is the concern about bombers. And, as I 
understand it, the classification of bombers was that if a 
bomber had, let us say, 10 nuclear warheads on it, it still 
only counted as one nuclear warhead, which was a strange 
element at least in my view at that time.
    Am I remembering that correctly? And has Russia taken 
advantage of this loophole in the New START treaty to arm their 
bombers with substantially more than one nuclear warhead?
    Ms. Thompson. Senator, you are correct in the math. They 
are in compliance with New START. But you raise a great point 
not only with the count, but as the chairman raised in his 
opening remarks, equipment has evolved and we have hypersonic 
glide vehicles and a series of the five systems that Secretary 
Trachtenberg raised that will not fall under the treaty at this 
point. And that is why the President has been clear, as has the 
Secretary, about the need to modernize our discussions and have 
these discussions with our Russian counterparts to include the 
systems that we have and, more importantly, the systems that 
will be fielded shortly.
    Senator Romney. Thank you.
    It is my hope that as we negotiate towards a nuclear 
agreement with Russia and potentially with China as well that 
it is fully encompassing of new technologies, as well as 
technologies that might be developed in the future, and that we 
are not in a setting where once again we are agreeing to major 
reductions in our capacity and allowing potential opponents to 
have major increases in their capacity.
    I would also note that I think it is a high priority for 
this body to make the substantial investment that was promised 
in our triad. Our ground-based nuclear deterrent is very, very 
old. It is decades old and needs to be completely updated, and 
I hope that we will get about that in very short order.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Romney.
    Nine years ago at this table Senator Kerry was sitting in 
this chair and Senator Lugar was sitting in this chair. I was 
sitting down there somewhere. And we had these discussions 
regarding the New START. And a number of us were adamantly 
opposed to it for a lot of the reasons that you have suggested. 
And one of them that was incredibly important to us was 
modernization, and we were promised--they did not have enough 
votes to get over the hump so they promised these modernization 
efforts. And it has been a real disaster in that regard. We 
just have not followed through on it, and it is very 
unfortunate, one of the many reasons why I oppose a gratuitous 
5-year extension given where we are.
    So thank you for that.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I share the ranking member's grave concern about the 
announcement this morning regarding the withdrawal of non-
emergency personnel from Iraq. It is a vague announcement. This 
could be consular services. It could be all non-military 
personnel. We have no idea about the details.
    Ms. Thompson, can you share any details with us this 
morning about exactly what personnel are being withdrawn from 
Baghdad and other parts of Iraq?
    Ms. Thompson. Senator, I do not receive diplomatic 
security, but I assure you the team will take the questions 
back for our leadership.
    Senator Murphy. Ms. Thompson, I want to talk to you about 
Iran for a moment. I just want to confirm what the purpose of 
our pressure campaign is. Many of us feel that it has been ham-
handed without a well-defined end game. But I assume that the 
purpose of this maximum pressure campaign is, in the end, to 
compel the Iranians back to the negotiating table, to enter 
into a new negotiation over a set of U.S. objectives. Is that 
the purpose of this campaign?
    Ms. Thompson. That is an element of the campaign, yes, 
Senator.
    Senator Murphy. What do you mean that it is an element?
    Ms. Thompson. The strategy has more details than that. I 
mean, that is one portion of it. It is also to prevent the 
continued expansion of their malign activity through the 
region, and the list that the Secretary has been forthcoming 
with with the 12 items. So that is certainly an element of it.
    Senator Murphy. But we do not imagine that they are going 
to fulfill those 12 objectives on their own. There will have to 
be a negotiation with the Iranians over our desire to have them 
fulfill those 12 U.S.-stated goals.
    Ms. Thompson. That is correct. The Secretary has stated he 
prefers a diplomatic solution on that.
    Senator Murphy. And so this set of goals that the Secretary 
has laid out, which calls on the Iranians to stop enrichment 
and never pursue plutonium processing and their ballistic 
missile program, release all prisoners, end support for 
Hezbollah, Hamas, and Islamic jihad, end support for the 
Houthis, withdraw forces from Syria, end support for the 
Taliban, end the IRGC support for militant terrorist groups, 
and stop threatening behavior--that list remains our bottom 
line. That is what we expect the Iranians to produce either on 
their own unilaterally or through a negotiated process.
    Ms. Thompson. That is correct, Senator.
    Senator Murphy. Let me ask another question of you, Mr. 
Trachtenberg. Let me try to ask the same question that Senator 
Menendez asked. A negotiation requires two willing parties. 
Nobody enters into a negotiation if they are told at the outset 
that they are going to get nothing from it. And so let me ask 
the same question that he asked regarding why China would enter 
into a negotiation with the United States and perhaps with 
Russia when today reportedly China has 300 warheads and between 
the United States and Russia, we have thousands.
    I am not asking you to sort of lay out what our concessions 
would be, but give us an idea that you have some plan to make 
the case to China that there would be a benefit to them to 
limit their nuclear capability. What general area of 
concessions might we offer them?
    Mr. Trachtenberg. Well, Senator, I appreciate your 
question. We are at the beginning of a process right now. And I 
would say China has envisioned itself as a major power on the 
world stage. China has been flexing its military muscle. China 
has been undertaking a number of actions in order to garner 
respect and attention as a major player.
    Now, if China wishes to be treated as a major player, then 
China should accept the responsibilities of a major power in 
the world today and that includes engaging with respect to its 
nuclear arsenal and its nuclear capabilities.
    So while we are at the start of this process, I believe 
that it is entirely legitimate for us to seek ways to engage 
the Chinese such that they understand if they are going to be a 
responsible player on the world stage, that they should address 
these issues in a responsible manner.
    Senator Murphy. So I ask these questions because it appears 
to me as if the preconditions for negotiations with Iran and 
what seems to me a very ill-thought-out strategy for engaging 
China is just an excuse to get no agreement. If you set up a 
list of requirements for negotiations with Iran that are wholly 
and completely unrealistic, if you believe that the Chinese 
should negotiate with us just because they are a great power, 
you are setting up the negotiations for failure. In fact, you 
are setting up the inevitability that the negotiations will 
never begin. And so that is what I think you hear as a worry 
from many members of this committee, that while we would love 
for Iran to give up their support for Hezbollah, Hamas, the 
Houthis, we would love for them to abandon their ballistic 
missile program, I would love for the Chinese just to decide 
that because they are a great power, that they should start 
negotiations with us, when it comes to arms control, hope is 
not a strategy. And I worry in the end that these are just all 
excuses for why we are never going to enter into a meaningful 
dialogue with either. That is why to many of us this seems like 
escalation with no end game. But I appreciate your candor 
before the committee.
    The Chairman. Thank you very much, Senator Murphy.
    Senator Paul.
    Senator Paul. I agree with Senator Murphy. I mean, you want 
a ballistic missile deal with Iran. We got rid of the nuclear 
deal, which took years and years of pressure with international 
sanctions. We got a nuclear deal, and you say you want a 
ballistic missile deal. Well, they are not going to do a 
ballistic missile deal with you ever as long as Saudi Arabia is 
spending like eight times as much as they do and the Gulf 
sheikhdoms surrounding them. It is a complete non-starter. So 
if that is our goal, it is sort of like saying we are no longer 
going to have any kind of diplomatic solution with Iran.
    With regard to Iran, Mr. Trachtenberg, do you believe the 
President has the authority to wage war with Iran without 
congressional authorization?
    Mr. Trachtenberg. I believe that every nation has a right 
to self-defense, and that if attacked, the United States has 
the ability----
    Senator Paul. That is not the question. The question is not 
on defending against an attack of sailors on a boat or people 
in an embassy. I think we all agree with that. We are talking 
about war. Let us say they attack one of our boats and we 
defend ourselves. We all agree we should defend ourselves.
    Can the President continue to a full-scale war with 120,000 
troops? Can we have a full-scale waging of war with Iran 
without congressional authorization?
    Mr. Trachtenberg. Only the Congress has the responsibility 
to declare war--has the authority to declare war.
    Senator Paul. Right. So the answer is the President cannot 
do it, and that would be the explicit answer I would hope we 
would get from the policy person at the State Department.
    Ms. Thompson, the Aegis Ashore--is it essentially run by 
the same system as the Aegis Afloat?
    Ms. Thompson. Sir, I would actually defer the particulars 
of the Aegis since it is a military piece of equipment to my 
DOD counterpart. I can tell you that we have had discussions on 
the Aegis system with my Russian counterparts, but the ins and 
outs of the Aegis really is----
    Senator Paul. Are they essentially run by the same system?
    Mr. Trachtenberg. I believe the essential components are 
similar.
    Senator Paul. So this is also what Lockheed Martin says. 
They make it and they say it is essentially the same system.
    We also have folks at--I think it is--the U.S. Naval 
Institute saying that basically Aegis Ashore could be easily 
turned into an offensive cruise missile system.
    And so I guess my problem is if you really are serious 
about talking to Russia, it is not that we have to accept that 
they are telling the truth or that we agree with their points. 
But, Ms. Thompson, when you say that their response that we are 
in violation is laughable and the world sees it as a fraud, it 
sounds to me like you are not really interested in negotiating 
with the Russians because I think it is a debatable point. It 
is an arguable point. It has technical details. That is what 
nuclear arms negotiators and real diplomats are supposed to be 
discussing.
    So if it is essentially the same system and it got 
converted to a system of offense and we could launch cruise 
missiles from it, it sounds like the Russians have a point. And 
it sounds like it is at least a debatable point that we should 
be discussing before we say, oh, well, it is all the Russian 
side. That is not what diplomacy is about. Diplomacy is about 
figuring out what the other side is saying and not just saying 
they are a bunch of crazy, laughable people and we cannot talk 
to them. That is a recipe for no diplomacy.
    And I think that is what you have set up in Iran, but it is 
also what you are setting up in Russia in that we are not even 
willing to discuss whether Aegis Ashore is similar to Aegis 
Afloat and whether they have an argument or not. I would think 
that is where we would set down technical people at a table and 
have a discussion.
    Ms. Thompson. Is that a question? May I respond to that, 
Senator?
    Senator Paul. Well, I mean, the question--you say it is 
laughable. Is that something a diplomat should be saying about 
something that is the main point Russia is bringing up? I am 
not saying we accept it. I am not saying it is true. But if 
that is their main complaint about us and our main complaint is 
the SSC-8, we would hear each other's complaints, but we would 
not say to the other side, we would not say in public that 
their argument is laughable if we wanted to come to an 
agreement.
    Ms. Thompson. I can tell, you, Senator, in my six 
engagements with my Russian counterparts since September, I 
have said that there is a professional discussion. I said that 
about the Deputy Foreign Minister Sergei Ryabkov, whom I have 
met multiple times. We have met and had candid discussions. We 
have had technical experts meet. We just had the BCC--and we 
have given readouts on that about 2 and a half weeks ago up to 
the Hill--where we have had the discussions, and they have 
raised the intelligence and we have countered that intelligence 
with our technical experts----
    Senator Paul. My advice to you is I would not say in public 
that your adversary's response is laughable. That really goes a 
long way towards setting back any kind of possible diplomatic 
solution. And this is important. We are talking about whether 
or not the world could be destroyed by nuclear weapons, whether 
we should limit the amount of nuclear weapons. When we say our 
adversary is laughable, you do a great injustice to the idea of 
diplomacy. So I hope you will reconsider things you say in 
public.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I think it is fitting that this committee today is holding 
a hearing on arms control when you are also celebrating our 
friend and colleague, Senator Lugar, whose leadership was such 
a critical step toward limiting nuclear arsenals.
    One of the things that I think is important to remember is 
that one of the benefits of the New START treaty is that it 
provided a mechanism for us to continue to communicate with 
Russia and to understand what their capabilities are and for 
them to understand our capabilities and that that is important 
as we think about the potential to misread or misunderstand the 
messages that one nuclear power is sending to another.
    But I want to begin actually by sharing the concerns that 
have already been expressed about the failure to brief this 
committee and Congress about what is happening with Iran and 
the decision to withdraw all non-essential personnel from Iraq. 
And while I appreciate the chair of this committee and probably 
the chair of other committees have been briefed, I think it is 
important and a critical enough issue, given the potential 
threat of war, that everybody on this committee and everybody 
in Congress should be briefed about that because I agree with 
you, Mr. Trachtenberg. I think Congress does have the authority 
to determine whether we go to war or not.
    So let me ask you, Under Secretary Thompson, have you been 
briefed by the State Department or the administration on the 
decision to withdraw our personnel from Iraq? I am not asking 
you what that briefing contained. I am asking you have you been 
briefed?
    Ms. Thompson. As it does not pertain to my portfolio at the 
State Department, no, ma'am, I have not.
    Senator Shaheen. Have you been briefed, Mr. Trachtenberg?
    Mr. Trachtenberg. No, ma'am, I have not.
    Senator Shaheen. Do you have any idea who has been briefed 
on this decision, Under Secretary Thompson?
    Ms. Thompson. It would be speculation. I know the process. 
We have had it in other posts where our diplomatic security 
professionals brief the Secretary, provide them with the 
intelligence, and they make the call.
    Again, with overseeing arms control, foreign military 
sales, and nonproliferation, my portfolio does not include the 
diplomatic security. But I know that the process involves 
intelligence information presented to the Secretary, ma'am.
    Senator Shaheen. Thank you.
    So can you tell me, Under Secretary Thompson, under this 
administration, is it still part of U.S. strategy not only to 
limit nuclear arsenals in the world but also to ensure that 
there is never a mistake that results in a catastrophic 
response in error?
    Ms. Thompson. Yes, ma'am. This is a zero defects part of my 
portfolio, and engaging with partners and allies, sharing best 
practices on lessons learned so we ensure every nuclear power 
has that same safety and security and where others do not, to 
encourage them to do so. Yes, ma'am.
    Senator Shaheen. So I understood in your testimony that, 
first, you acknowledged that Russia is complying with the New 
START treaty, but then you raise some concerns about other 
nuclear arms systems that they are developing. Did I understand 
that accurately?
    Ms. Thompson. Yes, ma'am. The five systems that President 
Putin alluded to in his 2018 statement.
    Senator Shaheen. So under the New START treaty, if the 
United States wanted to, we could also develop those systems-- 
could we not--and still be in compliance?
    Ms. Thompson. I defer to DOD, but we have not done the R&D 
efforts because we have remained in compliance with all of our 
treaties, ma'am.
    Senator Shaheen. Well, I am still trying to figure out--you 
are saying that Russia is in compliance and we are in 
compliance. So if Russia is doing this development and they are 
in compliance, then we could do the same development and still 
be in compliance. Is that not true, Mr. Trachtenberg?
    Mr. Trachtenberg. Theoretically, we could do any number of 
things, Senator. But we certainly have no intention of doing 
the kinds of things that President Putin has announced that the 
Russians are going forward with.
    And in terms of compliance, we have assessed that some of 
those new systems would fall under the category of 
accountability.
    Senator Shaheen. Right, but we are not at the point at 
which those systems have been developed in a way that would 
require they fall under that.
    Mr. Trachtenberg. That is correct, Senator.
    Senator Shaheen. So I am just pointing out that for those 
people who say that New START prohibits us from doing the kind 
of R&D that we think we need to do to defend this country, that 
in fact, it does not. That is a statement. That is not a 
question.
    But I do have a question about how much information the 
United States receives from Russia through data exchanges, 
through on-site inspections, and what that benefit is to our 
understanding of what Russia is doing. Mr. Trachtenberg, can 
you speak to that?
    Mr. Trachtenberg. I can tell you that the verification 
procedures have been useful, but I would defer to Under 
Secretary Thompson for specific details on that.
    Senator Shaheen. Good. Would you like to respond?
    Ms. Thompson. Yes, ma'am. They are in compliance. We do get 
access. Because of the nature of the access, we do get insight 
into their systems, and they, in turn, get access into ours. 
Yes, ma'am.
    Senator Shaheen. So if New START were to lapse, how would 
the Pentagon and the intelligence community replace the 
information that we are getting from the New START verification 
agreement?
    Mr. Trachtenberg. I think that would be subject to 
negotiation, Senator. In terms of our approach to future 
negotiations with Russia and potentially China as well, we 
would obviously look for any agreement to contain verification 
and compliance measures in there or measures where we could be 
reasonably certain the parties would be willing to comply and 
would, in fact, comply. So that would be part and parcel I 
believe of any future negotiation.
    Senator Shaheen. Well, that makes sense to me. That is if 
we decide we are going to renegotiate the New START treaty. But 
based on the testimony and the questioning, it sounds like 
there are real questions about whether the administration has 
made that decision. And given the fact that if that happens, 
the treaty lapses, we no longer have that verification program, 
how do we then replace the information that we are getting 
under that verification program?
    Mr. Trachtenberg. Well, Senator, I would say again that the 
decision has not been made in terms of the approach to New 
START, whether it should be extended or should not be extended, 
if extended, for how long it should be extended, or what to do 
if it is not extended. This is part of an ongoing interagency 
discussion that we are having with our State Department 
colleagues and others in terms of trying to figure out, as I 
said in my opening statement, sort of the broader strategic 
context in which we need to look at arms control going forward 
to incorporate concerns over a number of factors, not just 
strategic weapons but non-strategic weapons as well.
    Senator Shaheen. Well, thank you, Mr. Chairman. I 
appreciate your letting me go over my time.
    The Chairman. Thank you, Senator Shaheen. Those are really 
important points that you are making. As with all these 
treaties, like I said at the outset, good faith is absolutely 
critical. And one of the things also that we all know is 
verification is essential. Without verification, you do not 
have anything. And with their violation of the Open Skies 
Treaty, it causes real problems as far as our ability to 
verify. Those two are interrelated. The New START just does not 
stand by itself. You got to have the good faith. But those are 
good points that you raised regarding verification. Absolutely 
critical.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Trachtenberg, I want to drill down. I really want to 
get specific about what we mean by modernization and where we 
are at a disadvantage to Russia currently in their 
modernization. So specifically, what do we mean by 
modernization? What have we not modernized? What have they?
    Mr. Trachtenberg. Senator, what we are talking about is 
essentially upgrading and replacing the existing generation of 
land-based missiles with a ground-based strategic deterrent it 
is called and developing a new strategic bomber, as well as the 
Columbia class strategic submarine, ballistic missile firing 
submarine. So it would be taking those existing systems which 
have been actually in place literally for decades and that have 
had their life extended already, in some cases several times, 
well beyond their original life expectancy, and moving forward 
and replacing them with more modern systems.
    Senator Johnson. So it is really the delivery system that 
is primarily what is in need of upgrade.
    Mr. Trachtenberg. Absolutely, Senator. Our nuclear 
capabilities are based on several things. It is not just the 
nuclear weapons themselves, but it is the delivery systems that 
carry those weapons.
    Senator Johnson. So is Russia more advanced in terms of 
their missile technology? Are they more advanced in their 
submarine technology? Are they more advanced in their bomber 
technology?
    Mr. Trachtenberg. Well, I think it is clear that Russia has 
invested in developing more systems and more types of systems, 
ICBMs, stationary silo-based, mobile, SSBNs, new strategic 
ballistic missile submarines, and basically all of the three 
legs of its strategic triad. They have gone forward with a 
rather aggressive modernization program to date.
    Senator Johnson. What about the nuclear warhead itself? 
When Senator Kyl was here--I am not on Armed Services, so I 
would attend regularly his meetings on modernization. What 
about the warhead itself and our ability to make sure that that 
is modern and will be capable?
    Mr. Trachtenberg. Well, Russia continues to develop and 
produce new nuclear weapons. I believe the United States is the 
only country of the five major nuclear powers that has not 
produced a new nuclear weapon in quite some time. So we rely on 
our existing stockpile of weapons, which need to be certified 
as reliable and safe on an annual basis.
    Senator Johnson. And how well are we keeping up with that? 
One of the things I learned with Senator Kyl's meetings is when 
you are not building new weapons, you are kind of losing the 
ability to even theoretically determine how good your current 
weapons are.
    Mr. Trachtenberg. Well, it is true, Senator, that our 
weapons are aging as much as the delivery platforms have been 
aging. But I would respectfully defer to the Department of 
Energy's National Nuclear Security Administration, the NNSA, 
that is responsible for our stockpile program and for 
assessments as to the continued reliability and safety and 
efficacy of the existing stockpile.
    Senator Johnson. So it has been my understanding in 
Congress certainly even under the Obama administration, they 
were appropriating funds for modernization. Is that simply not 
the case? I mean, why were those funds not used to modernize?
    Mr. Trachtenberg. No. Those funds were appropriated. The 
Obama administration did support the nuclear modernization 
program. The difficulty is that the modernization process 
itself takes a significant amount of time. We are talking about 
many years, perhaps in some cases decades, to actually fulfill 
and complete the current modernization program of record. So 
there is a long tail to that funding, which is why we very 
strongly believe and hope that the Congress will continue to 
provide the resources necessary in order for us to take the 
actions we need to take to see the modernization program 
continue.
    Senator Johnson. So what do we spend the money on? What did 
we modernize? What did we get out of the money we spent?
    Mr. Trachtenberg. My understanding is we have upgraded some 
of the guidance control systems in some of the systems that we 
currently have. But again, the delivery platforms themselves--
there is only so much life extension that you can invest in to 
keep them reliably operational. And that is the difficulty that 
we are currently facing.
    Senator Johnson. Do we still have vacuum tubes in some of 
these control systems?
    Mr. Trachtenberg. That I do not know, Senator. I would have 
to take that one for the record. But it is clear that because 
of the age of these systems, I would reiterate that we are in, 
I think, critical need of moving forward and moving forward 
deliberately and robustly with the full scope of the 
modernization effort.
    Senator Johnson. Well, consider that a question for the 
record. I do want some details in terms of where we are, what 
we are lacking in terms of our modernization program.
    Mr. Trachtenberg. Absolutely.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson. Those are all 
good points that you have made.
    So to the American people that are watching, let there be 
no mistake. The United States of America is in a position to be 
able to defend itself. We do have aging infrastructure in our 
nuclear arsenal, but having said that, a trip through the labs 
in New Mexico would be very enlightening for you, and it would 
leave you with no question that anyone who is thinking that we 
cannot take appropriate actions to defend ourselves is making a 
really, really bad mistake.
    So with that, Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses.
    I want to ask about an important issue in the future of 
arms control and that is part 810 authorizations. My staff 
reached out to each of your staffs 2 days ago to tell you I was 
going to ask about this, so hopefully you will be prepared to 
answer my questions.
    I am a member of the Armed Services and Foreign Relations 
Committees.
    A part 810 authorization, as you know, is a legally 
mandated approval that the Department of Energy must give to an 
American company that wants to transfer nuclear know-how to a 
foreign country. The DOE is required to get the concurrence of 
the Department of State prior to such transfers, and they are 
also required to consult with the Department of Defense before 
such transfers.
    On March 28th, we had a hearing in the Armed Services 
Committee where I asked Secretary of Energy Perry to provide me 
information about part 810 transfers that the United States has 
done during the Trump administration, not proprietary 
information, but the dates of transfers, the companies who were 
given permission to transfer, and the countries to whom they 
were transferring. In the hearing, he committed to do that. 
That was 48 days ago.
    I submitted a question for the record on April 2nd, 43 days 
ago. Thus far, the Department of Energy has refused to provide 
any information in response.
    On April 10, Mr. Chair, we had a hearing with Secretary 
Pompeo. He and I talked about it at the hearing. I pointed out 
that the State Department is required to concur in such 
transfers, and I asked Secretary Pompeo the same question about 
when did the State Department concur in the transfers, did the 
State Department agree that the transfers should be held secret 
and private contrary to early practice. He committed in the 
hearing to get me an answer on the Saudi Arabian transfers.
    At the close of the hearing, Mr. Chair, you directed the 
witnesses to answers questions submitted for the record. So the 
following day, April 11, 34 days ago, I submitted questions for 
the record to the Department of State asking them to answer the 
questions that I had directed to Secretary Pompeo during the 
hearing in this committee. And thus far, I have received no 
answer from the Department of State either to my oral questions 
to Secretary Pompeo or in response to my questions for the 
record.
    So I want to start with Secretary Thompson. This is very 
important for arms control. The reason there is a part 810 
process is you would not want to allow unlimited transfers of 
nuclear know-how to other nations that might be used to 
proliferate nuclear arms. And that is why the legal requirement 
is the Department of State has to concur and there has to be 
consultation with the Department of Defense and other 
stakeholders.
    Can you give me the dates that the Department of State 
concurred in transfers of nuclear technology to Saudi Arabia 
pursuant to the part 810 requirement?
    Ms. Thompson. I do not have those dates available, but I 
will take that back to get the answer for you, Senator.
    Senator Kaine. Well, we reached out 2 days ago to say I was 
going to ask exactly this question, which I asked of the 
Department of State on April 10th in a hearing and on April 
11th in a letter. And the chair of the committee directed the 
Secretary to answer my question.
    So when we reached out 2 days ago and asked you to prepare, 
did you not do anything? Did you ask whether you were allowed 
to share that information to me? Or are you now just telling me 
what everybody is telling me that they will get back to me in 
the infinite future?
    Ms. Thompson. No, sir. I am well aware of what the 810 
process with our Department of Energy counterparts. I know that 
we concurred. I did not receive the information that you were 
going to ask which dates we concurred. So I owe you that 
answer.
    Senator Kaine. Is your office involved in the part 810 
process?
    Ms. Thompson. It is, Senator. I send my Assistant Secretary 
as part of that concurrence process.
    Senator Kaine. So your office would have been involved in 
the concurrences that I am asking about.
    Ms. Thompson. Yes, sir.
    Senator Kaine. The Department of Energy has testified on 
the record that there have been seven concurrences of transfers 
to Saudi Arabia. Were you not aware that I had posed this 
question to the Department of State in writing 35 days ago?
    Ms. Thompson. I did, Senator. I did not get the feedback 
that you needed, the dates, but I will get you the dates. I 
will confirm those dates with you.
    It is important also, as you know--and I do not want to use 
up your time--that it is important to get U.S. companies in the 
door. And that is a process, the first step in that data 
exchange, and if we are not there, the Chinese are.
    But I will get you that answer.
    Senator Kaine. You are making a good editorial argument. I 
am not arguing with the program. I am just arguing--why would 
you keep it secret?
    Ms. Thompson. It is not.
    Senator Kaine. Earlier administrations have made this 
information public, to the press, to Congress, to reporters. 
Reuters had to break the story that you had done these secretly 
and refused to give information to the press.
    Mr. Chair, could I ask you--sometimes we are hearing from 
agencies that they need not respond unless the request is from 
the chairman. Could you ask them to answer my question and give 
me the dates on which the State Department concurred in the 
seven part 810 authorizations to Saudi Arabia?
    The Chairman. I will, Senator.
    Ms. Thompson. I will get you the dates, Senator. And if I 
may, to my knowledge it is not secret. There is a process to 
request that information through DOE. But I will get you the 
dates, Senator.
    Senator Kaine. Well, does the process include a Member of 
the Senate asking the Secretary of Energy 48 days ago, please 
give me this information? I mean, would you consider that a 
fair process?
    Ms. Thompson. I would assess it that I will get you the 
answer, Senator.
    Senator Kaine. Do you have any knowledge as to why the 
State Department has not yet responded to my request, which is 
now 35 days old? It is seven transfers, seven dates, lists of 
companies, and they are all about Saudi Arabia. I am not asking 
for any proprietary information. Do you know why I have not 
received a response to this date?
    Ms. Thompson. Sir, I will get you the answer. I can assure 
you it is somewhere in a stack. It is one of many.
    Senator Kaine. When will you get me the answer?
    Ms. Thompson. It is not my answer to get, for me to 
coordinate. As soon as I get back we will find out where it is 
in the process through our Leg Affairs. I will get you the 
answer.
    The Chairman. Senator Kaine, let me help you out. I talk 
regularly with Secretary Pompeo and have over these 48 days on 
numerous occasions. I have not talked to him about your 
question on the 810 process. I commit to you in my next 
conversation with him that that will be on the list.
    Senator Kaine. Thank you so much, Mr. Chair.
    Thanks to the witnesses.
    The Chairman. You are entitled to that information.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Welcome back to the committee.
    It was 8 months ago when we were here talking, and the 
questions I had to you specifically had to do with Russia, 
weaponry. So my concern is not will they or will they not, but 
can they or can they not in terms of capacity and capability. 
So kind of following up, the question I started then I am going 
to start with again today.
    In March of 2018, President Putin announced Russia was 
developing several new nuclear delivery vehicles that could 
evade or penetrate U.S. ballistic missile defenses. One of the 
new weapons mentioned by President Putin at the time was a 
large multiple warhead intercontinental ballistic missile 
called the Sarmat. The others include a long-range nuclear-
powered cruise missile, a long-range nuclear-armed underwater 
drone, and an air delivery hypersonic cruise missile.
    Under article 5 of the New START, parties can raise their 
concerns about new types of strategic offensive weapons under 
the bilateral consultative commission.
    So would these weapons be covered under the New START?
    Ms. Thompson. Thanks, Senator. Good to see you again.
    So two of the systems will. The Avant Garde and Sarmat 
would be considered as existing types. We have raised that with 
our Russian counterparts in discussions and the technical 
experts. And the other three systems would be considered 
basically new kinds, and we will have that discussion. We have 
raised that as well and we will continue to raise it in our 
engagement with the Russians, Senator.
    Senator Barrasso. So along those lines, how would these new 
weapons be counted under New START in terms of multiple 
warheads, all the different components of that?
    Ms. Thompson. It is early in the process with the two 
systems if they continue on the glide path of their 
development. But the technical experts are sitting down and 
laying that out. The other three will be part of the 
discussions.
    The other takeaway I take, as the Under Secretary 
overseeing this, is New START, as it stands, again was relevant 
for its time and the systems that we have. Technology has 
evolved at such an incredible rate that many of our arms 
control treaties are no longer relevant. So it is incumbent 
upon us--you heard it from the President. You heard it 
yesterday with President Putin and Secretary Pompeo. We are 
going to have these discussions. We must have these discussions 
to ensure that we uphold our arms control responsibilities and 
adapt to make sure we have the safety and security for the 
American people. And it is a challenge I am up to. Thanks, 
Senator.
    Senator Barrasso. Because the question is how the inclusion 
of these weapons--how critical that would be in our decision on 
whether to extend New START.
    Ms. Thompson. Absolutely. The systems that they have now 
and the systems that they think they will have is being 
integrated with those interagency discussions. We rely on our 
DOD counterparts, on our DOE counterparts, the NSC, and the 
intelligence agencies. And I can assure you that schedule is 
rigorous and robust.
    Senator Barrasso. So maybe turning over to Deputy Under 
Secretary Trachtenberg, in terms of President Putin declaring 
that these new additions to the Russian strategic nuclear 
arsenal would render, I think he said, U.S. missile defense, in 
his words, useless, what is our government's assessment of the 
level of the maturity and accuracy of these weapons, if you can 
give this under these settings? And if we have to go to a 
secure setting, we can have that discussion.
    Mr. Trachtenberg. I would prefer to address that in a 
closed session, Senator Barrasso.
    You do raise a very substantial and important point here in 
terms of the capabilities that the Russians say they are 
developing and the capabilities that they can develop and 
whether, if, and how they would be accounted for under existing 
arms control agreements. So you are absolutely right, which is 
why I noted earlier that we believe it is important in looking 
at how we approach arms control going forward, that we look at 
the totality of national security concerns and issues that are 
being raised in particular by what Russia is doing and factor 
that into our interagency discussions on what is the best 
course of action for the United States.
    Senator Barrasso. In a follow-up to this--and I do not 
know. Mr. Chairman, you may want to think about a closed 
session so we can get to these specific answers because I want 
to know what the United States has in terms of a current or 
prospective missile defense system that could intercept these 
weapons. And you may be in the same situation of not wanting to 
discuss it in an open setting.
    Mr. Trachtenberg. Yes, sir.
    Senator Barrasso. In terms of what specific actions we as a 
government can take or are taking to respond to and to counter 
these new strategic nuclear weapons that Vladimir Putin 
continues to brag about.
    Mr. Trachtenberg. I agree with you, Senator. And that is 
why I think it is critically important that we roll those into 
the discussions that we are having within the interagency to 
figure out what is the best approach to guarantee our security 
and the security of our allies going forward in an arms control 
context.
    Senator Barrasso. Secretary Thompson, anything you would 
like to add to that?
    Ms. Thompson. I fully support the efforts of what we are 
going through in the interagency, and I agree it should be in a 
classified setting. I would not want our adversaries to know 
what we have and what we do not have, Senator.
    Senator Barrasso. Great. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. You raise some good 
points. For your information, the Senate National Security 
Working Group explored that exact area at some time in the not 
too distant past, and it is important that people have this 
information. It is there but it has to be in a classified 
setting.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ms. Thompson, the Trump administration recently expressed 
interest in engaging China on nuclear arms control. But I am 
concerned about the Trump administration's approach in that 
particular case. The administration seems to believe the best 
way to engage China on nuclear arms control is to push it to 
join a multilateral agreement with two countries whose nuclear 
arsenals are of an order of magnitude larger than its own, 
meaning the United States and Russia, just 10 times larger, 20 
times larger than anything that China has right now. So I want 
to talk about that further.
    The Chinese foreign minister stated that Beijing will not 
participate in three-way nuclear talks with the U.S. and 
Russia. So why does the Trump administration think that it is a 
viable path forward?
    Ms. Thompson. Thank you, Senator. And if I could just build 
upon the points that Secretary Trachtenberg raised earlier with 
the importance of having that dialogue with China.
    I have had dialogues with my Chinese counterparts. I was in 
Beijing at the end of January, the beginning of February. I 
just met a couple weeks ago--I do not remember the date; I need 
to pull my calendar--up in New York with my Chinese 
counterpart. We are having that discussion. They want to be a 
responsible player on the world stage. They want to be part of 
this great power competition. And with that, comes 
responsibilities. So we have to have that discussion. The 
important piece is we may not get there but we may. But we have 
to have a dialogue.
    I raised with my counterpart to have a working group--a 
strategic working group--on some things that we might be able 
to agree upon. They have declined at that juncture.
    Senator Markey. So would you be averse if that just comes 
to an end, that China will not accept that it is going to 
engage in those kind of talks? Would you object then to 
extending New START and separately engaging China on nuclear 
arms control?
    Ms. Thompson. We were just at the first step of our 
engagement with China for its arms control discussions. In 
fact, I would say it has not even taken a firm first step. 
Coming back and having the discussions with the leadership on 
how we want to go forward with that--I think we have an 
obligation to have those discussions.
    Senator Markey. I appreciate that.
    Does the administration view China's participation or non-
participation as relevant to New START's extension?
    Ms. Thompson. We recognize that to have a legitimate arms 
control discussion going forward on next terms of arms control, 
you have to have China in the mix.
    Senator Markey. So you are saying that you will not extend 
the New START treaty unless China participates.
    Ms. Thompson. I did not say that, Senator. I am saying we 
are early in the discussions with China. We are in the middle 
of an interagency discussion on next steps with New START. Know 
that those discussions are being had, but we have not reached a 
conclusion as yet.
    Senator Markey. I think it is pretty clear that the attempt 
to move this to multilateral arms control talks with Russia and 
then adding in China is really a poison pill to provide an 
excuse for not extending New START. That is my concern. And the 
reason that I believe that is that when I look at the 
administration's intent to pull out of the Paris Agreement, the 
Iran nuclear deal, the Intermediate-Range Nuclear Forces 
Treaty, and the arms trade treaty, that this just follows on 
part of that pattern.
    So what confidence can you give us that the Trump 
administration's never-ending review of New START or new 
insistence that arms control be multilateralized is not really 
just an excuse to kill the New START treaty?
    Ms. Thompson. Senator, I can assure you, as I stated in 
September, but can build on that because we had considerable 
discussions since that point both with partners and allies and 
with Russia. Our partners and allies have been very clear as to 
who is at fault for the demise of the INF Treaty. I have a firm 
statement from the Secretary-General--in fact, when he briefed 
Congress during his visit last month--that Russia is at fault 
for that. We continue to uphold our obligations.
    So as the overseer of arms control for the State 
Department, I am going to always maintain there are 
consequences when you do not fulfill your obligation. You call 
out that party. And that is what we have done with Russia and 
will continue to do with all parties. Arms control only works 
if you have a responsible partner on the other side.
    Senator Markey. And I agree with that. But to the extent to 
which we have an opportunity to extend the New START treaty, 
then in my opinion we should take advantage of that. As 
President Kennedy used to say, because you cannot make progress 
on every front does not mean that you should not make progress 
on any front. So we have an opportunity here with the New START 
treaty, and that is our principal nuclear rival, and we have a 
history of reaching agreements with them. And from my 
perspective, I think that we should take this opportunity to 
advance that goal and not allow a China problem, which it is, 
to deter us from reaching that agreement.
    And that is why I have introduced the SAVE Act to ensure 
that the United States continue adhering to a functioning 
bilateral nuclear arms control agreement that is in our 
national security interest. I just think it makes the most 
sense because that is where our biggest problem is, not to say 
that we should not also engage with China on this issue.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    With all due respect--and I mean that seriously--I do not 
think we need to have China as an excuse not to extend. I am 
absolutely opposed to extension. It has nothing to do with 
China. I mean, under present circumstances with their cheating 
and other things that they do, I am opposed to extension. It 
has nothing to do with China's participation. But in any event, 
thank you for those points.
    I know Senator Cruz has a couple questions. Senator 
Menendez, go ahead.
    Senator Menendez. Thank you, Mr. Chairman.
    Two comments and then two questions.
    The first comment. When I was out, Mr. Chairman, because I 
had another hearing to attend to, I understand that you stated 
that you were briefed on the President's circumstances as it 
relates to Iran and our embassy in Iraq, and I appreciate that 
you were briefed. That still leaves the Democratic leader of 
this committee and every other Democratic member and 49 
Democratic Members of the Senate not briefed about what is 
happening. And I just hope that when it comes to something of 
such potentially consequential significance that we can be 
briefed so we can understand what we are dealing with. So I 
appreciate that the chairman was briefed, but I reiterate my 
call for all of us to be briefed.
    Madam Secretary, let me just say you responded to Senator 
Kaine that it is not secret. Well, it is secret when you do not 
know that it exists, because you cannot ask for something if 
you do not know that it exists. So how does Senator Kaine know 
to ask for something, in fact, if it was not but for a press 
report that this transaction took place? We would have known 
before because as Members of the Senate, we would have been 
briefed that such a transaction took place. But we were not. 
And so, therefore, as far as I am concerned, it is secret.
    Let me ask Deputy Secretary Trachtenberg, do you agree with 
Congress' directive that nuclear modernization is linked to the 
strategic arms control progress?
    Mr. Trachtenberg. I agree, Senator Menendez, that nuclear 
modernization is important for arms control, but I also agree 
and believe that our nuclear modernization program stands on 
its own two legs--in this particular case, three legs.
    Senator Menendez. Well, I do not dispute the triad basis. 
But my question--let me reiterate it again because maybe my 
English is not that good.
    Congress' directive--directive--that nuclear modernization 
is linked to the strategic arms control process--do you agree 
that that is Congress' directive?
    Mr. Trachtenberg. Forgive me, Senator. Are you talking 
about a specific provision of law?
    Senator Menendez. When the modernization efforts were done, 
Congress specifically directed that that modernization is 
linked to a strategic arms control process. Are you not aware 
of that?
    Mr. Trachtenberg. I think our modernization is linked to a 
strategic arms control process in that it enables us to engage 
in strategic arms control.
    Senator Menendez. Do you agree that the current nuclear 
modernization program is predicated on working within the 
limits of New START?
    Mr. Trachtenberg. I am sorry, Senator.
    Senator Menendez. Do you agree that the current nuclear 
modernization program is predicated on working within the 
limits of New START?
    Mr. Trachtenberg. I think the current nuclear modernization 
program keeps the United States within the limits of New START. 
I am not sure I would say it was predicated on the limits of 
New START, but it is consistent.
    Senator Menendez. Do you agree that allowing New START to 
expire would require us to rethink our nuclear force structure 
because of the predictability and insights New START provides 
into Russian strategic nuclear forces?
    Mr. Trachtenberg. I think the insight that New START 
provides in terms of insight into Russian strategic nuclear 
forces is in fact valuable, and I agree with you on that. But 
again, I would suggest that our nuclear modernization program 
is critically important and should be carried out----
    Senator Menendez. But if we did not know anymore what the 
Russians had, then we would have to think about our own 
paradigm of what we think we would need in order to protect our 
nation. Is that not a fair statement?
    Mr. Trachtenberg. I think that is a fair statement, 
Senator.
    Senator Menendez. Secretary Thompson, last question. The 
U.S. asserted Russia was responsible for the chemical weapons 
attack in the U.K. The Chemical and Biological Weapons Act 
mandates sanctions be placed on Russia. Those sanctions are now 
more than 5 months late. Why has the administration failed to 
implement the mandated second round of sanctions?
    Ms. Thompson. We have done the analysis with the sanctions, 
Senator. We have those teed up. I would defer to the Secretary 
and the President, but my response would be it is part of a 
larger Russia strategy. But we have done great work. We have 
called them out. We have had the attribution mechanism, and we 
continue to call them out with the work that is being done 
with----
    Senator Menendez. Do you believe that when Congress 
mandates something, you have the discretion not to pursue it?
    Ms. Thompson. No, Senator. We have teed up the sanctions--
--
    Senator Menendez. The law is pretty clear. It mandates it. 
It is not a question of a broader Russia policy. It mandates 
it. And if we are consistently going to find that mandates mean 
nothing to the administration, then we are going to have to 
rethink our whole approach to the administration. There is a 
reason that Congress mandates things.
    Ms. Thompson. We have been extremely strong and vocal and 
active on pushing back on Russia's heinous attack on the 
Skripals in Salisbury, their work with the Assad regime----
    Senator Menendez. It is not very significant when there is 
a mandated sanction that should have been imposed 5 months ago, 
and all you can tell me is we are still thinking about it.
    The Chairman. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Welcome.
    Under Secretary Thompson, I would like to ask you some 
questions about the State Department's policy towards Iran. The 
State Department and, as I understand it, your bureau in 
particular has advocated for civil nuclear waivers to continue 
implementing parts of the catastrophic Obama Iran nuclear deal 
that allowed Iran to conduct nuclear research. Top State 
Department officials in your bureau have stated that it is your 
policy to facilitate, quote, international cooperation with 
Iran on a number of projects contemplated under the JCPOA that 
provide Iran opportunities to benefit from nuclear technology 
to signal our appreciation for the security benefits these 
projects were intended to provide.
    Elsewhere, officials, including those in your bureau, have 
touted the benefits of the so-called transparency as promised 
in the deal.
    These positions appear to be in significant tension, if not 
direct conflict, with the positions of President Trump. I find 
it troubling that we are continuing to implement parts of the 
nuclear deal, and I want to understand the basis for these 
decisions.
    Your predecessors in previous administrations suggested 
that Iran's access to civil nuclear technology hinges on 
whether Iran is a member in good standing in the Nuclear Non-
Proliferation Treaty. During the Bush administration, acting 
Under Secretary John Rood said Iran was no longer a, quote, 
member in good standing of the NPT. Under the Obama 
administration, Under Secretary Rose Gottemoeller said that 
Iran had been, quote, brought back into good standing with the 
Non-Proliferation Treaty regime because of the Iran deal.
    I am glad to note that recently the Trump administration 
appears to have reversed the Obama administration's 
whitewashing of Iran's conduct. Jeffrey Eberhardt, who has been 
nominated to be Special Representative for Nuclear Non-
Proliferation, recently confirmed to this committee in writing 
that, quote, Iran's standing as a non-nuclear weapon state 
party to the NPT cannot be described as good. That is a step in 
the right direction.
    First of all, I would like to confirm that assessment. Do 
you consider Iran to be a member in good standing of the NPT?
    Ms. Thompson. Thank you, Senator. And I appreciate the 
support for Jeff Eberhardt as his nomination process moves 
forward. He will be a great representative of this 
administration for our country as we have those key 
discussions. I have known Jeff for quite a while now.
    We have concerns, and we laid out those concerns. We have 
laid them out publicly and would have more details if we talk 
at the classified level on some of the concerns that we have 
with the way Iran is going. And Jeff's reflection is a definite 
reflection of where we are today.
    Senator Cruz. Let me just try that again. Do you consider 
Iran to be a member in good standing of the NPT?
    Ms. Thompson. We have concerns, Senator. We have concerns 
with where they are going.
    Senator Cruz. Do you agree with Mr. Eberhardt's statement 
in writing that, quote, Iran's standing as a non-nuclear 
weapons state party to the NPT cannot be described as good?
    Ms. Thompson. That is correct, and that is what we laid out 
in the compliance report. And we can give you the background of 
that in a classified setting. Absolutely, Senator.
    Senator Cruz. So why do you believe we should keep 
implementing parts of the nuclear deal, allowing Iran to do 
nuclear research even though Iran is not entitled to those 
benefits and President Trump has correctly rejected this 
foolhardy deal?
    Ms. Thompson. Again, Senator, we have given the 
information. Again, it is a rigorous interagency discussion 
with intelligence, with policy, with where DOD is, with DOE, et 
cetera. Then we make our recommendation to the Secretary, and 
he informs that with the President. We can give you the 
background on that on the classified version behind it. But in 
some areas--and that is why the Secretary made the 
determination some of the dates, you know, the length is not 
the same in some of the areas on where it is our best interest 
to have some of those waivers for a shorter duration.
    Senator Cruz. How is it possibly in our best interests to 
allow Iran to continue doing nuclear research in the Fordow 
bunker that was built into the side of a mountain to be able to 
develop nuclear weapons to use to murder Americans? How is that 
in our best interest?
    Ms. Thompson. Senator, again, this is a discussion that I 
would prefer to have in the SCIF on what information we have 
and what information we do not have.
    Senator Cruz. With all respect, the American people care 
deeply about this. So I am perfectly happy to have classified 
briefings, but whether we are allowing Iran to do nuclear 
weapons in a bunker designed to create weapons of mass 
destruction to murder Americans is an issue of concern to 28 
million Texans. And so the American people are entitled to get 
an answer. If it is the State Department's position that that 
is a good idea, the American people are entitled to know that.
    Ms. Thompson. Absolutely, Senator. So I will give you the 
answer to the American people, to all those in Texas, and to 
friends and family back in South Dakota. This President, this 
Secretary, myself, and everyone in this administration will 
stand for what is right for the safety and security of the 
American people, bar none.
    Senator Cruz. With all due respect, that did not answer the 
question remotely. Is it in our interest to allow Iran to 
continue to do nuclear research in the Fordow facility?
    Ms. Thompson. The decision made by this administration and 
with the Secretary for this last round is always in the 
interest of the American people, Senator. Thank you.
    Senator Cruz. So it really is the position that every 
decision State makes is always in the interest of the American 
people?
    Ms. Thompson. The safety and security? Yes, sir.
    Senator Cruz. That is a stunning Orwellian position. And 
let me be the first to say that I do not believe that is true 
in any administration, that every decision an elected official 
makes or an appointed official makes is by definition in the 
interest of the American people. And that is one of the reasons 
Congress has oversight responsibility.
    Ms. Thompson. Senator, we will not do a challenge here in 
public. I will tell you I took an oath, as did you, to the 
Constitution and to the American people and to enemies, foreign 
and domestic. My underlying going-in position is always the 
safety and security of the American people. I did that as a 
soldier. I did that as the National Security Advisor to the 
Vice President, and I am doing it as the Under Secretary of 
State.
    Senator Cruz. As we now know, the nuclear archives seized 
by the Israelis contained a wealth of new information about 
Iran's nuclear program. We know that Western intelligence 
agencies and the International Atomic Energy Agency did not 
know about these elements of Iran's nuclear program because the 
IAEA declared in 2015 that Iran never conducted activities 
which the archives now clearly show that Iran conducted. They 
were keeping nuclear weapons blueprints on the shelf to use 
later.
    Do you consider Iran's past possession of the nuclear 
archives seized by Israel last year, including the materials in 
the archives relevant to the development of nuclear weapons, to 
constitute noncompliance by Iran of any of its nonproliferation 
obligations?
    Ms. Thompson. Again, Senator, I would prefer to talk about 
what is in those documents not to be done in an open forum.
    Senator Cruz. Those documents are now public and have been 
released to the world.
    Ms. Thompson. Sir, there is information there that we are 
protecting sources and methods, and in all candor, I will give 
you that information.
    Senator Cruz. I tell you what. Just refer to the public 
part that you can go to the Internet and read. So I am not 
asking for classified portions. I am asking for the public 
portions of the archives that the Israelis seized that show 
Iran in open defiance. Do you agree with that?
    Ms. Thompson. I agree with the process that they had in the 
past years of those documents was disconcerting. Absolutely.
    Senator Cruz. Then why would the State Department continue 
to give waivers to allow them to conduct nuclear research, 
particularly in the Fordow site? That I find staggering. It is 
a bunker built in the side of a mountain. It is not a medical 
research facility. It is not a diaper factory. It is a bunker 
built to make nuclear weapons. And the State Department has 
signed waivers saying, Iran, the Ayatollah can continue to do 
nuclear research there. How is that possibly in the interest of 
the United States?
    Ms. Thompson. I would say that is your assessment, Senator. 
I would not characterize it as such.
    Senator Cruz. Well, that is the problem.
    The Chairman. Thank you, Senator Cruz.
    Senator Kaine, you had one more question?
    Senator Kaine. I did. Thank you, Mr. Chair, for indulging.
    And if I could, I would like to introduce in the record an 
article from the ``Washington Post'' dated January 21--no--
January 23, 2019 entitled ``Can Saudi Arabia Produce Ballistic 
Missiles? Satellite Imagery Raises Questions.''
    [The information follows:]

 Can Saudi Arabia Produce Ballistic Missiles? Satellite Imagery Raises 
                             Suspicions \1\

    Satellite images suggest that Saudi Arabia has constructed its 
first known ballistic missile factory, according to weapons experts and 
image analysts, a development that raises questions about the kingdom's 
increasing military and nuclear ambitions under its 33-year-old crown 
prince.
    If operational, the suspected factory at a missile base in al-
Watah, southwest of Riyadh, would allow Saudi Arabia to manufacture its 
own ballistic missiles, fueling fears of an arms race against its 
regional rival Iran.
    Saudi Arabia currently does not possess nuclear weapons, so any 
missiles produced at the apparent factory are likely to be 
conventionally armed. But a missile-making facility would be a critical 
component of any eventual Saudi nuclear weapons program, hypothetically 
giving the kingdom capability to produce the preferred delivery systems 
for nuclear warheads.
    ``The possibility that Saudi Arabia is going to build longer-range 
missiles and seek nuclear weapons--we imagine that they can't. But we 
are maybe underestimating their desire and their capabilities,'' said 
Jeffrey Lewis, a nuclear weapons expert at the Middlebury Institute of 
International Studies at Monterey, who discovered the factory with his 
team when analyzing satellite images from the region.
    Two additional missile experts who reviewed the satellite images 
for The Washington Post, Michael Elleman of the International Institute 
for Strategic Studies and Joseph S. Bermudez Jr. of the Center for 
Strategic and International Studies, agreed that the high-resolution 
photographs of the al-Watah site appear to depict a rocket-engine 
production and test facility, probably using solid fuel.
    It is unclear from the satellite images whether the facility has 
been completed or is functionally capable of manufacturing missiles. 
Regardless, the complex--which satellite images suggest broke ground in 
2013 when King Salman was defense minister--highlights the nation's 
intention to make its own advanced missiles after years of seeking to 
purchase them abroad, at times successfully.
    A spokesman for the Saudi Embassy in Washington declined to comment 
on the nature of the facility at the missile base. The Pentagon, State 
Department and CIA also declined to comment.
    News of the facility's existence comes at an inflection point for 
Saudi Arabia in international affairs. The kingdom has taken a more 
aggressive approach to military power under its new crown prince, 
Mohammed bin Salman, who warned in an interview last year with ``60 
Minutes'' that Saudi Arabia would develop a nuclear bomb if Iran does. 
The crown prince has been defense minister since 2015.
    Saudi Arabia has been pursuing a nuclear power-plant deal with the 
United States that would potentially include allowing it to produce 
nuclear fuel. The kingdom's insistence on domestic fuel production has 
raised worries among U.S. officials that the kingdom wants the atomic 
power project not only for civil use but also for covert weapon-making 
purposes.
    The killing last October of Saudi dissident and Washington Post 
contributing columnist Jamal Khashoggi at the hands of Saudi agents in 
Istanbul has hardened opposition to the power plant deal in Congress.
    A gambit by Saudi Arabia to build a ballistic missile factory would 
make sense given the rivals in its neighborhood. The kingdom faces an 
Israel armed with an advanced nuclear and missile program and an Iran 
that has continued to perfect its own abilities to make ballistic 
missiles. Should Iran stop abiding by the 2015 nuclear accord's 
limitations, many analysts believe the country could attain nuclear 
warheads in as little as a year.
    The Trump administration pulled out of the Iran deal, in part 
citing missile threats from Tehran that were not covered by the pact.
    A functional ballistic missile production facility would allow 
Saudi Arabia to begin matching some of the domestic missile-making 
capabilities that Iran has developed over the years and tapped to 
supply weapons to Houthi rebels fighting Saudi-backed forces in Yemen.
    The existence of a Saudi strategic rocket base at al-Watah first 
became public in mid-2013 after Jane's Defense Weekly published 
satellite imagery of the military facility, which was suspected of 
housing ballistic missiles purchased from China.
    But when Lewis and his colleagues David Schmerler and Fabian Hinz 
looked at satellite images of al-Watah captured by Planet Labs more 
recently, they discovered, in Lewis's words: ``Whoa, that is not just a 
missile base anymore.''
    The base was still there--with its launchpad, underground tunnels 
and administrative buildings--but across the road an entirely new 
facility had emerged, and it looked a lot like a rocket-engine factory 
designed to make ballistic missiles, they said.
    The facility included high-bay buildings, which Lewis says appear 
to be tall enough for a missile's motor case to stand on its end and be 
filled with fuel. Another clue was a barrier around one of the 
structures for protection against explosions. The site was also dotted 
with lightning rods, because the tall metal structures can attract 
lighting strikes that could ignite the propellant. That the facility is 
in the same location as an existing Saudi missile base bolstered the 
case.
    Above all, what appears to be a rocket-engine test stand set off 
alarm bells. The horizontal setup, Lewis said, coupled with the lack of 
pipes or tanks in the images, suggests that the facility was probably 
designed to produce solid-fuel rockets rather than liquid-fuel ones. 
Solid-fuel missiles tend to be more sought after because they are 
easier to conceal, can be launched more quickly and can be stored for a 
long time, making them more survivable in a conflict. How the Saudis 
obtained the technological expertise necessary to build the facility is 
unclear. One potential supplier: China.
    The Saudi engine test stand, according to Lewis, looks particularly 
Chinese. While most countries test rocket engines out in the open, 
Lewis said, China partially covers the flame shooting out of the engine 
and cools the test building with water so it does not catch fire. The 
Saudi test complex appears to replicate that setup, he noted, with a 
trench for the water next to the stand and what appears to be water 
runoff.
    China has sold ballistic missiles to Saudi Arabia in the past and 
has helped supply ballistic missile production capabilities to other 
nations. In the 1990s, Pakistan secretly built a plant for medium-range 
missiles using blueprints and equipment supplied by China. The factory 
in Pakistan has long drawn the attention of top Saudi officials.
    What involvement, if any, China or Pakistan had in building the 
Saudi facility is unclear. Nor is it clear what kind of ballistic 
missiles Saudi Arabia is manufacturing or preparing to produce.
    The Chinese and Pakistani embassies in Washington did not respond 
to requests for comment.
    The plant is smaller than those of other countries, suggesting it 
could have a limited capacity, said Lewis, Elleman and Bermudez, and 
recent satellite photos do not show any cars in the parking lot at the 
site, raising the possibility that the plant is not yet operational. It 
also has fewer barriers against explosions--earthen mounds known as 
berms--than similar production facilities in other nations, they said.
    Traditionally, the United States formally has sought to prevent the 
proliferation of ballistic missile technology. Washington at one point 
sanctioned China, for example, for delivering missile launchers and 
components to Pakistan in the 1990s.
    ``Under normal circumstances, we would be doing everything we could 
possibly do to constrain and convince the Saudis not to do this,'' 
Elleman said. ``The U.S. has always been opposed to the transfer of 
missiles that are inherently capable of carrying nuclear weapons.''
    The main way the United States seeks to prevent the spread of drone 
and missile technology is through the Missile Technology Control 
Regime, or the MTCR, an informal multicountry pact designed to prevent 
the transfer of certain missile technologies. China is not a member but 
has agreed to abide by some of its stipulations.
    While the United States sells an array of weaponry to Saudi Arabia, 
Washington has not sold ballistic missiles to Riyadh, in part because 
such missiles traditionally have been seen as destabilizing for the 
region. Saudi Arabia has turned to China in the past when met with 
refusals from the United States for certain weapons requests.
    For example, the United States declined repeated Saudi requests to 
purchase what are known as category-one American drones, including 
Predators and Reapers, partly because of MTCR's regulations. Instead, 
the kingdom turned to China, first purchasing drones and later striking 
a deal in which China will build a drone factory that will produce a 
Chinese copycat of the Predator in Saudi Arabia.
------------------
Note

    \1\ Sonne, Paul, ``Can Saudi Arabia produce ballistic missiles? 
Satellite imagery raises suspicions,'' Washington Post, (National 
Security), January 23, 2019. Shane Harris contributed to this report.
    Senator Kaine. The article opens: satellite images suggest 
that Saudi Arabia has constructed its first known ballistic 
missile factory, according to weapons experts and image 
analysts, a development that raises questions about the 
kingdom's increasing military and nuclear ambitions under its 
33-year-old Crown Prince.
    The article goes on to describe satellite imagery, quotes 
various individuals suggesting that the design of the facility 
appears to be of Chinese origin. It also recounts past history 
of Saudi purchases or acquisition of missile technology from 
both Pakistan and China.
    What can you tell me from the DOD or the State Department 
about your conclusions about Saudi Arabia developing a 
ballistic missile capacity, including manufacture, of such 
weapons and whether we know whether that is being done via 
transfers of technology from Pakistan, China, or any other 
nation?
    Mr. Trachtenberg. Senator, that is a good question. From 
DOD's perspective, I would, with your permission, want to take 
that one for the record and refresh myself on that particular 
article that you are citing and get some of the additional 
background on it, if I may.
    Senator Kaine. Fair enough.
    [The information follows:]

    [A classified response has been provided separately.]

    Senator Kaine. How about from the State Department, 
Secretary Thompson?
    Ms. Thompson. Yes, sir. I will take that back. I can tell 
you with our 123 discussions with that, we have been in 
discussions with Saudi for, I think it has been 12 years now. 
So not a new development. But we will take that back for the 
record.
    [The information follows:]

    [A classified response has been provided separately.]

    Senator Kaine. Great.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Well, this concludes our hearing this morning. A real 
sincere thank you to our two witnesses. I think this has been a 
very robust discussion that this body desperately needs to 
have. We really appreciate your attendance here and your input 
into this.
    For the information of members, the record will remain open 
until the close of business on Friday, and we would ask that, 
as quickly as possible, you respond to any of those questions 
so that we can move forward.
    And with that, if there is no further business before the 
committee, the committee will be adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                          Senator James Risch

                                 china
    The United States and Russia have obligated themselves under 
treaties such as the Intermediate-Range Nuclear Forces Treaty. China 
meanwhile has fielded large numbers of INF-range missiles, and refused 
to even discuss arms control. President Xi has directed the 
modernization of China's nuclear forces and that the Chinese military 
will be ``fully transformed into a first tier force'' by 2050. Chinese 
stockpiles and delivery systems are growing, and their disposition and 
posture is troubling.

    Question. If it chooses to expand its arsenal, how soon could China 
reach or exceed U.S. numbers for warheads and delivery systems?

    Answer. China is engaged in an ongoing expansion of its nuclear 
capabilities, presaging a more dangerous future of a considerably 
larger number of sophisticated delivery systems able to reach the 
United States and our allies and partners than in the past. China's 
lack of transparency regarding the scope and scale of its nuclear 
modernization program raises questions regarding its future intent and 
poses challenges for efforts to ensure a peaceful security environment 
and stable relations. Precisely because China is the least transparent 
member of the P5 nuclear weapon states, accurate assessments of its 
nuclear trajectory are difficult. We defer to the Intelligence 
Community for specific assessments.

    Question. What is the State Department doing to ensure that our 
allies have accurate information on Chinese threats, and to maintain 
alliance unity?

    Answer. The Department of State and Department of Defense engage 
regularly on deterrence and arms control matters with our Indo-Pacific 
allies, including through the Extended Deterrence Dialogue with Japan, 
the Deterrence Strategy Committee and the Extended Deterrence Strategy 
and Consultation Group with the Republic of Korea, as well as the 
recently initiated Strategic Policy Dialogue with Australia, as well as 
our NATO partners/Allies. Discussions involve threat briefings and 
policy updates. These forums provide critical venues to work with our 
allies to improve a shared understanding of nuclear dangers and the 
corresponding deterrence requirements, as well as advocate for expanded 
burden sharing within our Alliances.
                                 russia
    Russia has a pattern of cheating on its treaty obligations. It has 
also made major progress in modernizing its nuclear forces, and is 
developing new capabilities that present new threats to the U.S. Its 
tactical nuclear forces are not subject to any arms control limits and 
threaten U.S. access and extended deterrence for our allies.

    Question. How does the administration plan to incorporate Russia's 
new technology and delivery systems into arms-control talks? To what 
extent has the administration talked to Russia about these systems?

    Answer. We believe that the ``Sarmat'' ICBM and the ``Avangard'' 
glide vehicle deployed on an existing type of ICBM will be subject to 
the New START Treaty numerical limits and verification measures at the 
appropriate time in their development cycle. We consider the other 
three weapons announced by President Putin on March 1, 2018--the 
``Poseidon'' nuclear torpedo, the ``Burevestnik'' ground-launched 
nuclear-powered cruise missile, and the ``Kinzhal'' air-launched 
ballistic missile--to be new kinds of strategic offensive arms. We are 
discussing these systems with Russian officials in the appropriate 
fora.

    Question. What is the State Department doing to ensure our allies 
have accurate information on Russian threats and violations, and to 
prevent Russian disinformation from leading to the fracture of NATO and 
other alliances?

    Answer. The Department of State regularly keeps NATO and Indo-
Pacific allies apprised of developments regarding Russian threats and 
violations, as was the case during Russia's violation of the INF 
Treaty, and will continue to consult and coordinate regularly with 
allies in Europe and Asia. The 2018 Nuclear Posture Review, as well as 
the National Security Strategy and the National Defense Strategy, 
provide clear assessments of the Russian threat, and were informed by 
consultations with and assessments from our allies and partners.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                       Senator Benjamin L. Cardin

                          new start and beyond
    President Trump has reportedly directed his administration to seek 
a new arms control agreement with Russia and China. One official told 
CNN a few weeks ago that the agreement should include ``all the 
weapons, all the warheads, and all the missiles.'' The officials 
criticized the 2010 New Strategic Arms Reduction Treaty (New START) for 
only limiting U.S. and Russian deployed strategic nuclear weapons. I'm 
glad that the president has recently announced that he wants to add 
Russian non-strategic nuclear weapons in a future arms control 
agreement and include China in an arms control discussion. But not at 
the expense of or as a condition for extending New START:

    Question. What does the White House have in mind with the arms 
control outreach project they leaked last week? What is the 
administration's strategy for achieving more comprehensive arms control 
deals with Russia and China?

    Answer. The President has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapons systems involved. The President wants serious arms 
control that delivers real security to the American people and our 
allies. To achieve this, Russia and China must be brought to the table. 
The world has moved on from the Cold War and its bilateral treaties 
that cover limited types of nuclear weapons or only certain ranges of 
adversary missiles.

    Question. AVC clear with EUR, EAP and T. How long does the 
administration expect it will take to negotiate such comprehensive 
deals?

    Answer. At this stage it would be premature for us to speculate 
about the duration of any potential negotiations.

    Question. What does the administration want China to do on arms 
control?

    Answer. China's lack of transparency regarding the scope and scale 
of its nuclear build-up raises questions regarding its intent and poses 
challenges for efforts to ensure a peaceful security environment and 
stable relations. China has rebuffed calls to discuss our respective 
nuclear postures to reduce risks, promote transparency, and avoid 
misperception. At the same time, China has exploited the fact that the 
two largest nuclear powers are constrained by arms control agreements, 
while China can pursue competition on its own terms.
    China's unwillingness to engage undermines the regional stability 
that U.S. allies, partners, and others rely on. If China seeks to be a 
great power, it needs to behave like one by demonstrating the will and 
ability to alter the upward and destabilizing trajectory of its nuclear 
build-up.

    Question. Would China, which has only about 300 total nuclear 
warheads compared to the roughly 6,500 total warheads possessed by the 
United States and Russia, be allowed to build up to the much higher New 
START levels were it to join the treaty?

    Answer. The interagency is currently reviewing potential options to 
include China in serious arms control that delivers real security to 
the American people and our allies. At this stage, it would be 
premature to speculate on the exact contours of any deal that we might 
negotiate.

    Question. What is the administration willing to put on the table in 
talks with Russia and China on more comprehensive agreements?

    Answer. As President Trump has said, we want serious arms control 
that delivers real security to the American people and our allies, and 
that must include Russia and China. The world has moved on from the 
Cold War and its bilateral treaties that cover limited types of nuclear 
weapons or only certain ranges of adversary missiles. The interagency 
is reviewing options.

    Question. Is the administration's position that Russia must agree 
to limits on its tactical nuclear weapons or that China must limit its 
nuclear forces in some way as a condition for extending New START?

    Answer. The administration has long been concerned by Russia's 
continued development and deployment of nonstrategic nuclear weapons, 
as well as Russia's serial noncompliance with arms control obligations. 
It is too early in the process to speculate on any potential conditions 
for any New START Treaty extension. The administration is continuing 
its review of the New START Treaty while also looking at further 
options for serious arms control that deliver real security to the 
American people and our allies.

    Question. Wouldn't extending New START by 5 years buy additional 
time to develop U.S. negotiating positions, address issues of mutual 
concern that impact strategic stability, and avoid new risks from an 
unconstrained and less transparent U.S.-Russian nuclear relationship?

    Answer. The administration is evaluating whether extension of the 
New START Treaty is in the U.S. national interest and how the Treaty's 
expiration would affect U.S. national security in a deteriorating 
security environment, where Russia is developing new strategic 
offensive arms and is serially noncompliant with its arms control 
obligations, and China is engaged in an ongoing nuclear build-up.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                           Senator Tim Kaine

                              saudi arabia
    Question. The Department of Energy has publically stated that 
Secretary Perry has issued seven authorizations for exports to Saudi 
Arabia. Please list the dates that the State Department concurred in 
each of these seven Part 810 authorizations for a U.S. company to 
conduct work in Saudi Arabia:
    Please also provide the name of the company involved in conducting 
this work. Who at the State Department provided concurrence for each of 
these seven authorizations?

    Answer. Part 810 authorizations differ from 123 agreements in that 
they do not provide a legal basis to transfer nuclear material or 
reactors as a 123 agreement does but rather authorize the transfer of 
nuclear-related technical assistance, subject matter expertise, and 
data. The Bureau of International Security and Nonproliferation, which 
has responsibility within the Department for civil nuclear cooperation 
matters, oversaw the Department's review of the seven Saudi Arabia-
related Part 810 applications and provided concurrence on each of them 
to the Department of Energy on November 29, 2017; March 28, 2018; May 
31, 2018; and January 25, 2019. These reviews were conducted consistent 
with U.S. law and standard Department of State practices.
    Applications for Part 810 authorizations may contain commercial 
proprietary information. I refer you to the Department of Energy for 
questions regarding the specific contents of the authorizations.

    Question. What awareness does the State Department have about the 
Chinese supply of ballistic missiles to Saudi Arabia and assistance in 
building a ballistic missile production factory inside Saudi Arabia? Do 
you share the assessment that Saudi Arabia maintains one of the largest 
ballistic missile arsenals in the region? What is the Department doing 
to address this extremely concerning issue? If necessary, provide a 
classified response.

    Answer. This response is classified and will be set separately via 
secure correspondence.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                        Senator Edward J. Markey

             state department's role in arm control policy
    Question. Please describe the State Department's role in the 
interagency process on arms control policy?

    Answer. The State Department's role is to guide the interagency 
process involving the negotiation, implementation, and verification of 
international agreements in arms control and international security. 
This includes the development of arms control policies for the 
implementation of existing agreements and the negotiation of future 
agreements.
                      russia and new start treaty
    Question. Has the State Department engaged in arms control 
negotiations with Russia since the President and his team announced an 
interest in new arms control agreements?

    Answer. While the State Department has not engaged in formal arms 
control treaty negotiations with Russia since the President's April 4 
statement about arms control, since January I have met four times with 
my Russian counterpart Deputy Foreign Minister Ryabkov to discuss a 
variety of arms control issues to include how to modernize arms 
control. The interagency is reviewing options on how best to proceed.

    Question. Who will serve as the State Department's lead negotiator 
in engaging Russia on extending New START? Will this same individual 
serve as the administration's lead negotiator for other arms control 
efforts?

    Answer. At this stage, it would be premature to speculate about the 
personnel involved in any potential negotiations.

    Question. What percentage of Russia's deployed strategic nuclear 
warheads are accountable under the New START Treaty? If New START 
expires, what percentage of Russia's deployed strategic nuclear 
warheads would be legally constrained?

    Answer. All of Russia's currently deployed strategic nuclear 
warheads are accountable under the New START Treaty. As of the March 1, 
2019, data exchange, Russia's deployed strategic nuclear warheads 
totaled 1,461, which is below the Treaty's relevant central limit of 
1,550. It is too early to speculate about how Russia's deployed or 
stockpiled strategic nuclear warheads might be addressed under any 
potential new agreement.

    Question. Please compare unclassified estimates of the number of 
Russia's nuclear weapons deployed on the delivery systems Putin 
announced on March 1, 2018 to those deployed on Russia's nuclear Triad 
today:
    Can you describe Russia's interests in U.S. concessions when 
approached about Non-strategic nuclear weapons arms control or 
reductions? What U.S. concessions would the State Department recommend 
in order to achieve an agreement on non-strategic nuclear weapons with 
Russia?

    Answer. The delivery systems President Putin revealed on March 1, 
2018, were in developmental stages at the time of the announcement. We 
defer to the Intelligence Community for specific assessments regarding 
the current status of those systems.
    In the past, Russia has demanded that the United States return all 
U.S. non-strategic nuclear weapons to the United States, eliminate its 
non-strategic nuclear weapons infrastructure abroad, and end long-
standing NATO arrangements with respect to U.S. nuclear weapons in 
Europe. These preconditions are unacceptable to the United States and 
NATO. It would be premature to speculate on the exact contours of any 
deal that we might negotiate.

    Question. Does the State Department view reducing or otherwise 
limiting non-strategic nuclear weapons as a priority, compared to 
maintaining the European Phased Adaptive Approach, or rotational 
deployments of U.S. conventional forces in Europe?

    Answer. The State Department views the European Phased Adaptive 
Approach and rotational deployments of U.S. conventional forces in 
Europe as ironclad commitments to protect deployed U.S. forces and NATO 
Allies. The State Department also views limiting non-strategic nuclear 
weapons as a priority.

    Question. Is the State Department actively involved in 
consultations with NATO regarding achieving a non-strategic nuclear 
weapons agreement with Russia?

    Answer. We consult regularly with our NATO Allies regarding arms 
control and the threat from Russia, including Russia's non-strategic 
nuclear weapons and how best to deter and defend against their 
potential use.

    Question. Do weapons which the U.S. government classifies as 
Russia's ``non-strategic nuclear weapons'' use short- and -intermediate 
range, ground based missiles as delivery systems?

    Answer. The U.S. government currently considers ``non-strategic 
nuclear weapons'' to comprise weapons, including those using ground-
based missiles as delivery systems, that have a range of less than 
5,500 kilometers.

    Question. In addition to the SSC-8, Putin and his Defense Minister, 
Sergey Shoigu, described a new ground-based version of the Kalibr sea-
launched cruise missile, and a hypersonic ground-launched missile. How 
does the U.S. government plan to respond to these new systems?

    Answer. We have long recognized the challenge posed by Russia's 
development of a wide variety of intermediate-range weapons, including 
but not limited to the SSC-8. We are working with allies and partners 
to address these threats comprehensively.

    Question. Is it possible to dissuade Russia from deploying these 
weapons, and what is your strategy for doing so?

    Answer. We continue to press Russia to verifiably destroy the SSC-8 
and call upon Russia to not take any steps to destabilize regional or 
global stability. We continue to work with our allies and partners to 
deny Russia any military advantage from its INF Treaty violation and, 
more generally, its development of a wide variety of intermediate-range 
weapons.

    Question. Please provide a more detailed readout of what specific 
arms control issues and initiatives Secretary of State Pompeo discussed 
with Russian President Vladimir Putin and Foreign Minister Sergey 
Lavrov during their recent meeting in Sochi:
    Does the State Department believe the New START Treaty remains in 
[the] national security interest of the United States?

    Answer. As Secretary Pompeo has said, the President has charged his 
national security team to think more broadly about arms control, to 
include countries beyond our traditional U.S.-Russia framework and a 
broader range of weapon systems. Secretary Pompeo and other senior 
officials regularly engage Russian leaders about arms control and 
strategic security issues.
    The New START Treaty's limits on Russia's strategic nuclear force, 
establishment of data exchanges--including the locations, numbers, and 
technical characteristics of weapons systems and facilities--and its 
verification provisions contribute currently to the national security 
of the United States. The administration is reviewing whether to seek 
an extension of the Treaty with Russia. Central to that review is 
evaluating whether extension is in the U.S. national interest and how 
the Treaty's expiration would impact U.S. national security in the 
evolving security environment. This includes considerations related to 
Russia's ongoing development of new strategic offensive arms, non-
strategic nuclear weapons, and serial noncompliance with its arms 
control obligations, as well as China's continuing nuclear 
modernization.
             intermediate-range nuclear forces (inf) treaty
    Question. What does the State Department recommend as diplomatic 
and economic counters to Russia's likely deployment of additional INF 
systems after termination of the agreement?

    Answer. Russia has already fielded multiple battalions of the INF-
violating SSC-8 ground-launched cruise missile. As we have been for the 
past several years, we are working with our allies and partners to deny 
Russia any military advantage from its INF Treaty violation and, more 
generally, its development of a wide variety of intermediate-range 
weapons.

    Question. Did the State Department ever ask the Russian government 
to consider codifying a ban on arming INF-range missiles with nuclear 
warheads? If not, why not?

    Answer. The INF Treaty banned the development and deployment of all 
INF-range missiles, including those armed with nuclear warheads. Russia 
has never disputed this. Beginning in May 2013, the United States 
raised concerns about Russia's development of INF-range missiles on 
more than 30 occasions at senior levels, including at the highest 
levels of the Russian government. Despite 6 years of U.S. efforts to 
return Russia to compliance with the INF Treaty, Russia has not taken 
any demonstrable steps to do so.
                 nuclear cooperation with saudi arabia
    Question. During the hearing, you indicated that you would be 
working with your staff to provide further information about the part 
810 authorizations issued to companies seeking to engage in nuclear 
cooperation with entities within Saudi Arabia. Please provide the 
following information about any 810 authorizations the Trump 
administration has awarded to companies seeking to engage in nuclear 
cooperation with Saudi Arabia:

  <bullet> The name of the entity

  <bullet> The date the 810 authorization was issued

  <bullet> A summary of the work covered by the entity

    Should you choose to withhold this information, please provide both 
the legal and policy rationale for withholding this information from 
Congress.

    Answer. Part 810 authorizations differ from 123 agreements in that 
they do not provide a legal basis to transfer nuclear material or 
reactors as a 123 agreement does but rather authorize the transfer of 
nuclear-related technical assistance, subject matter expertise, and 
data. The Bureau of International Security and Nonproliferation, which 
has responsibility within the Department for civil nuclear cooperation 
matters, oversaw the Department's review of the seven Saudi Arabia-
related Part 810 applications and provided concurrence on each of them 
to the Department of Energy on November 29, 2017; March 28, 2018; May 
31, 2018 (included concurrence on four applications); and January 25, 
2019. These reviews were conducted consistent with U.S. law and 
standard Department of State practices.
    Applications for Part 810 authorizations may contain commercial 
proprietary information. I refer you to the Department of Energy for 
questions regarding the specific contents of the authorizations.

    Question. Congress has a responsibility to conduct rigorous 
oversight of any potential nuclear cooperation with foreign governments 
given nuclear energy's substantial foreign policy and national security 
implications:
    Therefore, please provide a date by which the State Department will 
furnish to me and other members of the Senate Foreign Relations 
Committee the complete applications and all relevant paperwork for any 
entities that have received 810 authorizations for potential 
cooperation with Saudi Arabia or entities within Saudi Arabia. Should 
you choose to ignore this request, please provide both the legal and 
policy rationale for withholding this information from Congress.

    Answer. Part 810 authorizations differ from 123 agreements in that 
they do not provide a legal basis to transfer nuclear material or 
reactors as a 123 agreement does but rather authorize the transfer of 
nuclear-related technical assistance, subject matter expertise, and 
data. The Bureau of International Security and Nonproliferation, which 
has responsibility within the Department for civil nuclear cooperation 
matters, oversaw the Department's review of the seven Saudi Arabia-
related Part 810 applications and provided concurrence on each of them 
to the Department of Energy on November 29, 2017; March 28, 2018; May 
31, 2018 (included concurrence on four applications); and January 25, 
2019. These reviews were conducted consistent with U.S. law and 
standard Department of State practices.
    I refer you to the Department of Energy for questions regarding the 
specific contents of the authorizations.
                         2019 compliance report
    The 2019 State Department compliance report recently provided to 
Congress is woefully devoid of substance and depth. At just 12 pages 
long, it is significantly shorter than previous reports and is alarming 
in some of the longstanding arms control verification efforts it 
chooses to omit:

    Question. Did you approve the release of the summary of 
unclassified version of the 2019 Compliance Report that was so 
incomplete?

    Answer. The 2019 Report was reviewed and approved by the Deputy 
Secretary of State on behalf of the Department, and represents the 
Department's views. As part of the clearance process, the Report was 
reviewed and approved by the Under Secretary for Arms Control and 
International Security. As indicated in the Department's April 15 
transmittal letter to Congress, the 2019 Report consists of an 
unclassified Trends section and a classified Annex. A more 
comprehensive unclassified section of the Report will be submitted to 
Congress after the appropriate classification downgrade review is 
complete.

    Question. Why did you approve a compliance report that fails to 
mention even once the New START Treaty? Do you think it's appropriate 
that the unclassified summary does not address New START, one of our 
most important bilateral arms control treaties?

    Answer. Consistent with past practice, the Department submitted its 
annual New START Report to Congress on March 5 pursuant to Section 
(a)(10) of the Senate Resolution of Advice and Consent to Ratification 
of the Treaty Between the United States of America and the Russian 
Federation on Measures for the Further Reduction and Limitation of 
Strategic Offensive Arms, and referenced it in the 2019 Compliance 
Report that was sent to Congress.
    We also refer you to the classified Annex of the 2019 Report where 
this treaty is discussed in detail.

    Question. Did CIA Director Haspel concur on this report as required 
by law?

    Answer. In keeping with past precedent, the CIA's Weapons and 
Counterproliferation Mission Center, on behalf of the Director of CIA 
and in conjunction other CIA and Intelligence Community components, 
reviewed the report for substantive accuracy and consistency with 
relevant intelligence reporting, and cleared on that basis.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                          Senator Jeff Merkley

    Question. Does the administration share the view expressed by NATO 
Secretary General Stoltenberg that NATO has ``no intention of deploying 
ground-launched nuclear missiles in Europe?'' Will the United States 
commit that any defense or deterrence steps the United States may make 
in response to Russia's violation of the Intermediate-Range Nuclear 
Forces (INF) Treaty will be a consensus decision agreed to by all NATO 
Members?

    Answer. U.S. research and development is focused on conventionally-
armed ground-launched missiles, not nuclear. Moreover, because we have 
been abiding by the Treaty, we are not in a position to immediately 
field such a ground-launched, INF-range system. As a result, it is too 
early to discuss basing at this stage, but we are committed to 
consulting with NATO Allies as we move forward.

    Question. Has the United States sought or received an agreement 
from a host state on NATO territory or the Indo-Pacific region to host 
a conventional or nuclear armed U.S. ground-launched cruise missile 
(GLCM) or another intermediate-range missile system accountable under 
the INF Treaty?

    Answer. Because we have been abiding by the Treaty, we are not in a 
position to immediately field a ground-launched, INF-range system. 
Therefore it is too early to discuss basing at this stage, but we are 
committed to consulting with our allies and partners as we move 
forward. U.S. research and development is focused on conventionally-
armed ground-launched missiles, not nuclear.

    Question. In your written testimony you identify several 
considerations guiding the U.S. interagency review into potential 
extension of the New START Treaty. As one consideration, you referenced 
the new ``kinds or types'' of Russian nuclear systems not yet deployed 
that may be eventually accountable under the treaty:
    If the treaty were to expire on February 5, 2021, would the United 
States lose its ability through the Bilateral Consultative Commission 
(BCC)--currently provided in Article V of the treaty--to argue that 
these new Russian strategic systems should be made accountable under 
the treaty?

    Answer. Should the Treaty expire, the BCC would no longer exist. 
However, the BCC is not the only appropriate forum for discussing these 
systems with Russia. Any U.S. decision regarding a potential extension 
of the Treaty will reflect considerations related to Russia's ongoing 
development of new strategic offensive arms. Russia's ongoing 
development of non-strategic nuclear weapons and new strategic 
offensive arms not subject to New START are two factors motivating the 
administration's consideration of a broader arms control approach.

    Question. The S-28 ``Sarmat,'' a new Russian heavy intercontinental 
ballistic missile (ICBM) with a reported payload of up to 14 nuclear 
warheads, will be accountable under New START. If the treaty expired, 
how would the United States place binding limits on this system as well 
as Russia's other nuclear systems already accountable under the treaty 
(i.e., ICBMs, submarine-launched ballistic missiles, and heavy 
bombers)?

    Answer. President Trump has charged his national security team to 
think more broadly about arms control, both in terms of the countries 
and the weapons systems involved. This includes constraining Russia's 
new strategic arms. State Department officials regularly meet with 
Russian officials bilaterally and multilaterally to discuss matters 
relating to arms control. The United States Government has many 
channels through which it can address concerns related to potential 
Russian weapon systems. We will continue these discussions as 
appropriate in the interest of U.S. national security.

    Question. In the event of the treaty's expiration, would the loss 
of insight into the location, movement, and disposition of Russia's 
strategic nuclear forces be in the U.S. national security interest?

    Answer. We are continuing to review how the Treaty's extension or 
expiration would affect U.S. national security in the evolving security 
environment, including by evaluating the impact of data exchanges and 
access through on-site inspections to Russian facilities subject to the 
Treaty.

    Question. You also testified to the desire to include China in a 
future arms control agreement. According to the 2019 Department of 
Defense report on the Military and Security Developments Involving the 
People's Republic of China, China currently has 90 deployed ICBMs and 
48 deployed SLBMs and non-governmental estimates place China's number 
of nuclear warheads at fewer than one-tenth of that possessed by each 
the United States and Russia:
    Given that China has significantly fewer strategic delivery 
vehicles and nuclear warheads than the United States, what concessions 
does the administration believe China, Russia and the United States 
should be willing to make to bring the Chinese government into an 
agreement related to its strategic nuclear arsenal?

    Answer. China is investing considerable resources to modernize and 
expand its nuclear arsenal, which is resulting in an increasingly 
diverse and sophisticated force with an unknown end state. China's lack 
of transparency regarding the scope and scale of its nuclear 
modernization program raises questions regarding its future intent and 
poses challenges for efforts to ensure a peaceful security environment 
and stable relations. As President Trump has said, the United States 
wants serious arms control that delivers real security to the American 
people and our allies, and that means Russia and China must be brought 
to the table to do so. The world has moved on from the Cold War and its 
bilateral treaties that cover limited types of nuclear weapons or only 
certain ranges of adversary missiles.

    Question. As defined by the New START Treaty counting rules, how 
many of China's warheads and strategic delivery vehicles would be 
accountable under the treaty?

    Answer. Any discussion of including China in an arms control 
agreement is hypothetical at this time. Specifics regarding which 
weapon systems would be limited and how they would be limited are key 
questions that would have to be agreed upon by all Parties, should such 
an option be pursued.

    Question. Every U.S.-Russia bilateral arms control treaty took no 
fewer than 2 years to successfully negotiate. Given the New START 
Treaty expires in fewer than 21 months, and China does not share the 
decades-long U.S.-Russia institutional history on arms control 
agreements, how is it practical to conclude a treaty with China prior 
to February 5, 2021?

    Answer. At this stage it would be premature for us to speculate 
about the duration of any potential negotiations.

    Question. What steps has the administration taken to engage China 
in discussions regarding strategic stability?

    Answer. In pursuit of a peaceful security environment and stable 
relations and following the release of the 2018 Nuclear Posture Review, 
the United States proposed establishing a Strategic Capabilities 
Working Group with China, focused on risk reduction and transparency in 
the nuclear and strategic capabilities arena. China has repeatedly 
rejected U.S. efforts to broach these topics through meaningful 
discussions. China's unwillingness to engage undermines the regional 
stability that U.S. allies, partners, and others rely on.

    Question. Your testimony says that a ``decision on extension will 
carefully consider U.S. and allied security needs.'' Was the New START 
Treaty among the issues on the April 3-4 NATO Ministerial agenda and if 
so did allies express support for extending the treaty? Which allies 
spoke at the 2019 Nuclear Non-Proliferation Treaty Preparatory 
Committee in favor of extending New START?

    Answer. The New START Treaty was not an agenda item at the April 3-
4, 2019, NATO Ministerial. At the 2019 Nuclear Non-Proliferation Treaty 
Preparatory Committee, many allies spoke in support of New START 
extension. I personally engaged with several allies at the NPT PrepCom 
where the extension of New START was a topic in our discussions. We 
will continue to take into account allied and partner views as we 
decide next steps on a potential extension of the Treaty, and I remain 
committed to continued engagement with my diplomatic counterparts.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                          Senator James Risch

    Question. How is DoD addressing the threat of Chinese missiles?

    Answer. The United States depends upon strategic deterrence to 
address threats to the homeland from Chinese intercontinental-range 
missiles. However, in the event of conflict, we will defend, to the 
extent feasible, against any ballistic missile attack upon the homeland 
from any source. With regard to Chinese regional missile forces, we 
believe they are intended to restrict our ability to operate in the 
Indo-Pacific region in support of our defense and security commitments. 
Missile defenses are a key component within our broader regional 
posture to protect deployed U.S. forces and allies and partners; to 
preserve our freedom of action in the face of adversary anti-access/
area defense (A2/AD) capabilities; and to assure allies and partners. 
To this end, we are pursuing a layered approach to address A2/AD that 
includes additional Patriot, THAAD, and SM-3 missile defenses; 
integrated air and missile defense (IAMD); attack operations to reduce 
the scale of missile strikes; and passive defenses.

    Question. What threat do Chinese tactical nuclear weapons pose to 
our allies and interests?

    Answer. During the next decade, China is likely to double the size 
of its nuclear stockpile in the course of implementing the most rapid 
expansion and diversification of is nuclear arsenal in its history. It 
is improving its ground- and submarine-based nuclear capability and is 
pursuing a viable nuclear ``triad'' with the development of a nuclear--
capable, strategic bomber. In addition, it is working to field nuclear, 
theater-range precision-strike systems capable of reaching U.S. 
territory, allies, partners, and U.S. forces and bases in the region. 
The scope and scale of China's nuclear modernization program, combined 
with China's lack of transparency, raise questions regarding its future 
intent. This not only increases the threat of possible nuclear coercion 
and conflict for the United States and its allies and partners, but 
risks miscalculation and misperception.

    Question. The Russians are chasing emerging technologies that have 
potential to revolutionize undersea warfare and U.S. superiority in the 
maritime domain. This includes the development of Artificial 
Intelligence backed, maritime big-data networks. Moreover they are 
pursuing hypersonic missile systems and a nuclear powered underwater 
drone. The Commander of U.S. Strategic Command recently expressed 
concern with Russia building nuclear capabilities outside the new START 
Treaty. How might these new Russian weapons affect strategic stability?

    Answer. Russia's new novel nuclear delivery systems are difficult 
to manage under current arms control agreements and create a strategic 
challenge for the United States. The United States has engaged Russia 
on these systems in the context of the New START Treaty's Bilateral 
Consultative Commission, and we continue to do so. However, the New 
START Treaty requires that we protect the confidentiality of those 
discussions.

    Question. How do U.S. allies view the production of low-yield 
nuclear weapons?

    Answer. The United States consulted extensively with allies in 
developing the 2018 Nuclear Posture Review (NPR). Allies are familiar 
with the Russian doctrine and strategy that led to the U.S. call for 
the low-yield supplemental capabilities referenced in the NPR, and they 
appreciate the assurance and deterrence effects provided by such 
capabilities.

    Question. In light of this, why is nuclear modernization a critical 
complement to arms control, and an essential component of strategic 
stability?

    Answer. Arms control can be an effective tool for managing 
competition and reducing risk. Yet arms control is not an end in 
itself, but must contribute to the security of the United States and 
its allies and partners. Unfortunately, both Russia and China are well 
along in their nuclear modernization programs. In contrast, our current 
nuclear delivery systems, weapons, command and control systems, and 
infrastructure are rapidly aging into obsolescence. Due to previous 
deferrals, our nuclear forces are well beyond their original design 
lives--some decades beyond--and must now be modernized. In this 
context, it is critical that the United States continue its nuclear 
modernization program both to ensure effective and credible deterrence, 
and to posture the United States for possible arms control negotiations 
when it has a willing partner.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                       Senator Benjamin L. Cardin

    Question. President Trump has reportedly directed his 
administration to seek a new arms control agreement with Russia and 
China. One official told CNN a few weeks ago that the agreement should 
include ``all the weapons, all the warheads, and all the missiles.'' 
The officials criticized the 2010 New Strategic Arms Reduction Treaty 
(New START) for only limiting U.S. and Russian deployed strategic 
nuclear weapons. I'm glad that the president has recently announced 
that he wants to add Russian non-strategic nuclear weapons in a future 
arms control agreement and include China in an arms control discussion. 
But not at the expense of or as a condition for extending New START. 
What does the White House have in mind with the arms control outreach 
project they leaked last week? What is the administration's strategy 
for achieving more comprehensive arms control deals with Russia and 
China?

    Answer. The President wants serious arms control that delivers real 
security to the American people and our allies and partners. To achieve 
this, he believes Russia and China must be brought to the table. The 
world has moved on from the Cold War and its bilateral treaties that 
applied to limited types of nuclear weapons or only certain ranges of 
adversary missiles. Therefore, the President has charged his national 
security team to think more broadly about arms control, both in terms 
of the countries and the weapons systems involved. We are attempting to 
address the core impediments to restoring trust with Russia and 
reestablishing the conditions necessary for further nuclear arms 
control initiatives. As for China, if it is the great power its leaders 
claim it to be, it should increase transparency into Chinese nuclear 
forces and limit China's growing nuclear weapons ambitions in order to 
help manage strategic competition among States.

    Question. President Trump has reportedly directed his 
administration to seek a new arms control agreement with Russia and 
China. One official told CNN a few weeks ago that the agreement should 
include ``all the weapons, all the warheads, and all the missiles.'' 
The officials criticized the 2010 New Strategic Arms Reduction Treaty 
(New START) for only limiting U.S. and Russian deployed strategic 
nuclear weapons. I'm glad that the president has recently announced 
that he wants to add Russian non-strategic nuclear weapons in a future 
arms control agreement and include China in an arms control discussion. 
But not at the expense of or as a condition for extending New START. 
How long does the administration expect it will take to negotiate such 
comprehensive deals?

    Answer. Negotiating a new agreement that encompasses a broader 
range of weapons than just strategic systems and includes an effective 
verification regime will likely take time. Since no specific proposal 
has been made, it is impossible to predict how long such a negotiation 
would take.

    Question. What does the administration want China to do on arms 
control?

    Answer. We expect China to act responsibly. China insists that it 
is a great power and demands that it be accorded such a status. If that 
is true, China must accept the responsibility of any great power--the 
responsibility of reducing the overall nuclear threat and submitting 
its forces to inspection and verification regimes similar to those 
accepted by the United States and Russia. China's nuclear deterrent 
cannot be verified as to numbers and the quality of its weapons. It 
refuses to offer transparency into its nuclear force and refuses to 
participate in any serious talks that would lead to any meaningful 
transparency.

    Question. Would China, which has only about 300 total nuclear 
warheads compared to the roughly 6,500 total warheads possessed by the 
United States and Russia, be allowed to build up to the much higher New 
START levels were it to join the treaty?

    Answer. Hypothetically, if China joined an agreement with the same 
provisions as the New START Treaty, it would be subject to the same 
numerical limits as the United States and Russia. However, we seek a 
new agreement that is broader and better fits the security environment 
we have today. If China wants the status of a great power, it needs to 
place itself under the accountability of a treaty regime that would 
verifiably limit its nuclear forces to a level sufficient for its 
security, enhancing stability among all parties.

    Question. What is the administration willing to put on the table in 
talks with Russia and China on more comprehensive agreements?

    Answer. The President has asked his national security team for 
possible options on more comprehensive agreements with Russia and 
China, and we are in the midst of developing such options. However, we 
do not believe it is prudent to discuss our potential negotiating 
strategies publicly.

    Question. Is the administration's position that Russia must agree 
to limits on its tactical nuclear weapons or that China must limit its 
nuclear forces in some way as a condition for extending New START?

    Answer. The President has asked for options from his national 
security team, and we are working to support that process. Whether or 
not to extend the New START Treaty is part of that discussion, but the 
administration has not made any decision yet.

    Question. Wouldn't extending New START by 5 years buy additional 
time to develop U.S. negotiating positions, address issues of mutual 
concern that impact strategic stability, and avoid new risks from an 
unconstrained and less transparent U.S.-Russian nuclear relationship?

    Answer. We are not just trying to buy time. We are attempting to 
address the core impediments to restoring trust with Russia and 
reestablishing the conditions necessary for further nuclear arms 
control initiatives. We must consider a multitude of factors before 
making any decision on whether or not to extend the New START Treaty--
for example, Russia's record of compliance with arms control 
agreements, its overall malign behavior on other matters such as 
Ukraine and election interference, and the fact that its nuclear 
arsenal is growing in areas not covered under the New START Treaty.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                           Senator Tim Kaine

    Question. The Department of Energy has publically stated that 
Secretary Perry has issued seven authorizations for exports to Saudi 
Arabia. Before these Part 810 authorizations are approved by the 
Department of Energy, the Department of Defense must be consulted. Who 
at the Department of Defense was consulted by the Department of Energy 
for each of these seven authorizations and on what dates?

    Answer. The Department of Defense reviews Part 810 license 
authorizations staffed to the Department by the Department of Energy 
pursuant to the Atomic Energy Act of 1954, as amended. The Defense 
Technology Security administration (DTSA) is the entry point for these 
license reviews under DoD Directive 5105.72. During the period November 
3, 2017, to October 23, 2018, the Department of Defense was consulted 
on all seven authorization requests approved by the Department of 
Energy to transfer nuclear technology to Saudi Arabia. DTSA technical 
experts; the Joint Staff; the Department of the Navy, Office of Naval 
Reactors; and DoD Regional Policy experts reviewed the requests and 
concurred with them.

    Question. What awareness does the Department of Defense have about 
the Chinese supply of ballistic missiles to Saudi Arabia and assistance 
in building a ballistic missile production factory inside Saudi Arabia? 
Do you share the assessment that Saudi Arabia maintains one of the 
largest ballistic missile arsenals in the region? What is the 
Department doing to address this extremely concerning issue? If 
necessary, provide a classified response.

    Answer. A classified response has been provided separately.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                        Senator Edward J. Markey

    Question. How confident is the Defense Department in its assessment 
of Russia's strategic nuclear warheads and launchers? From where does 
the Defense Department draw this confidence?

    Answer. The Department draws its confidence from the assessments 
provided by the Intelligence Community. The Department cannot provide 
an unclassified answer on the level of confidence in these assessments. 
We could provide additional information in a closed setting or 
classified response.

    Question. Would losing New START's inspection and verifications 
mechanisms impact U.S. confidence in its assessments of Russia's 
strategic nuclear warheads and delivery systems?

    Answer. The end of the New START Treaty's verification regime would 
end one source of information regarding Russia's strategic forces; 
however, there are other sources such as national technical means. The 
resulting impact on U.S. confidence in its assessments of Russia's 
strategic forces would be best addressed by the Intelligence Community.

    Question. If Russia was no longer constrained by the central limits 
of the New START Treaty, would the Defense Department's planning for 
nuclear contingencies with Russia be impacted? If yes, please describe 
how. If no, please describe why U.S. planning would not be impacted.

    Answer. The 2018 Nuclear Posture Review (NPR) states that one of 
the enduring roles of nuclear weapons is to hedge against an uncertain 
future. The NPR goes on to describe the importance of our strategic 
capabilities remaining safe, secure, reliable, and flexible enough to 
meet the ever-changing strategic environment.

    Question. Has the Defense Department engaged in arms control 
discussions with Russia since the President and his team announced an 
interest in new arms control agreements?

    Answer. In April 2019, a U.S. interagency delegation, including 
representatives of the Defense Department, met with Russia counterparts 
in a session of the New START Treaty's Bilateral Consultative 
Commission (BCC) to discuss ongoing New START Treaty implementation 
issues. The BCC usually convenes twice a year.

    Question. What percentage of Russia's deployed strategic nuclear 
warheads are accountable under the New START Treaty? If New START 
expires, what percentage of Russia's deployed strategic nuclear 
warheads would be legally constrained?

    Answer. Under the New START Treaty, all of Russia's deployed 
strategic nuclear warheads (those on deployed intercontinental 
ballistic missiles and submarine-launched ballistic missiles, and those 
counted for deployed heavy bombers) are accountable. This includes (as 
of March 1, 2019) 517 launchers and 1,420 accountable warheads. In 
addition, Russia is modernizing an active stockpile not accountable 
under the New START Treaty of up to 2,000 NSNW employable by ships, 
planes, and ground forces. If the New START Treaty expires, the 
deployed strategic nuclear warheads of both Parties will no longer be 
under any legal constraints created by the Treaty.

    Question. Please compare unclassified estimates of the number of 
Russia's nuclear weapons deployed on the delivery systems Putin 
announced on March 1, 2018 to those deployed on Russia's nuclear Triad 
today.

    Answer. Since the systems described by Russian President Putin in 
2018 are all in their developmental stages, we do not believe that any 
nuclear warheads have been deployed on them yet. However, I would defer 
to the Intelligence Community to provide a more detailed assessment of 
when these systems could become operational.

    Question. Can you describe Russia's interests in U.S. concessions 
when approached about Non-strategic nuclear weapons arms control or 
reductions? What U.S. concessions would the Defense Department 
recommend in order to achieve a non-strategic nuclear weapons agreement 
with Russia?

    Answer. We do not believe it is prudent to discuss publicly our 
potential negotiating strategy at this time. However, as stated in the 
2018 Nuclear Posture Review, U.S. pursuit of a modern nuclear-armed 
sea-launched cruise missile, once developed, may provide an incentive 
for Russia to negotiate seriously a reduction of its non-strategic 
nuclear weapons.

    Question. Does the Defense Department view reducing or otherwise 
limiting non-strategic nuclear weapons as a priority, compared to 
maintaining the European Phased Adaptive Approach, or rotational 
deployments of U.S. conventional forces in Europe?

    Answer. During the last decade, Russia has upgraded the capacity of 
its nuclear forces, as has China. Russia, in particular, is modernizing 
and expanding an active stockpile of approximately 2,000 nonstrategic 
nuclear weapons that can be deployed in a variety of ways, including on 
ships, bombers, and tactical aircraft, and with ground forces. The 
doctrine and exercises of Russia and China demonstrate their reliance 
on such systems in both crisis and conflict. However, none of these 
weapons are limited by any arms control treaty. Therefore, the 
Department views the limitation or reduction of such weapons to be a 
priority in any arms control negotiation. To be clear, the European 
Phased Adaptive Approach (EPAA) is not directed against Russia, and is 
irrelevant to the question of Russia's nuclear doctrine, capabilities, 
and expanding non-strategic nuclear weapons stockpile. EPAA protects 
our deployed forces and NATO Allies from missiles originating in the 
Middle East. Despite all its rhetoric, Russia understands this, and is 
unlikely to ever agree to trade away its non-strategic nuclear weapons 
in exchange for Aegis Ashore in Europe.

    Question. Is the Defense Department actively involved in 
consultations with NATO regarding achieving an non-strategic nuclear 
weapons agreement with Russia?

    Answer. The United States briefs our NATO Allies on a routine and 
continuing basis on arms control efforts that currently impact or could 
potentially impact Alliance security. In addition, NATO's Committees on 
Proliferation and on Arms Control, Disarmament and Non-Proliferation 
have responsibility on behalf of all NATO Allies to examine issues 
associated with the entire array of proliferation and arms control 
issues potentially affecting the Alliance.

    Question. Do weapons which the U.S. government classifies as 
Russia's ``non-strategic nuclear weapons'' use short- and -intermediate 
range, ground based missiles as delivery systems?

    Answer. Yes, among other delivery systems as well.

    Question. In addition to the SSC-8, Putin and his Defense Minister, 
Sergey Shoigu, described a new ground-based version of the Kalibr sea-
launched cruise missile, and a hypersonic ground-launched missile. How 
does the U.S. government plan to respond to these new systems?

    Answer. The Department believes there is significant military 
utility in developing conventional, ground-based missiles previously 
prohibited by the Intermediate-range Nuclear Forces (INF) Treaty. 
Fielding such systems is consistent with the National Defense 
Strategy's direction to build lethality and enhance the combat 
credibility and resilience of our forces.
    In response to Russia's material breach, its fielding of the SSC-8 
cruise missile, and its potential deployment of additional INF Treaty-
range systems, the Department is pursuing ground-based missiles, guided 
by ongoing work involving all of the relevant DoD capability 
development processes, so that DoD can determine how these systems best 
fit within the broader portfolio of long-range strike options available 
to the Joint Force.

    Question. Is it possible to dissuade Russia from deploying these 
weapons, and what is your strategy for doing so?

    Answer. Considering that Russia continues to field the SSC-8 cruise 
missile after almost 6 years of concerted U.S. diplomatic efforts to 
convince it to return to compliance with the Intermediate-range Nuclear 
Forces (INF) Treaty, it seems unlikely that Russia can be dissuaded 
from deploying such systems.

    Question. Does the Defense Department believe the New START Treaty 
remains in national security interest of the United States?

    Answer. Much has changed in the near-decade since the New START 
Treaty was signed in 2010, including the expansion of Russian and 
Chinese nuclear capabilities. A decision regarding extension of the New 
START Treaty has not yet been made, but will be balanced against 
changes in the strategic environment and broader concerns regarding 
Russia's non-compliance with other arms control and nonproliferation 
commitments. Any extension decision must weigh a variety of factors to 
ensure the national security of the United States and that of our 
allies and partners is maintained and strengthened.

    Question. What possible responses might the Defense Department 
recommend to counter Russia's likely deployment of additional INF 
systems after termination of the agreement?

    Answer. The Department believes there is significant military 
utility in developing conventional, ground-based missiles previously 
prohibited by the Intermediate-range Nuclear Forces (INF) Treaty. 
Fielding such systems is consistent with the National Defense 
Strategy's direction to build lethality and enhance the combat 
credibility and resilience of our forces.
    In response to Russia's material breach, its fielding of the SSC-8 
cruise missile, and potential deployment of additional INF Treaty-range 
systems, the Department is pursuing ground-based missiles, guided by 
ongoing work involving all of the relevant DoD capability development 
processes, so that it can determine how these systems best fit within 
the broader portfolio of long-range strike options available to the 
Joint Force.

    Question. Did the State Department ever ask the Russian government 
to consider codifying a ban on arming INF-range missiles with nuclear 
warheads? If not, why not?

    Answer. I am not aware of efforts by the State Department to ask 
the Russian Government to consider establishing a ban on arming 
Intermediate-Range Nuclear Forces (INF) Treaty-range missiles with 
nuclear warheads. Since the INF Treaty prohibits the possession, 
production, and flight-testing of INF Treaty-range, ground-launched 
ballistic and cruise missiles, the type of warhead is irrelevant to 
this core provision of the INF Treaty.

    Question. The 2018 Nuclear Posture Review states that Russia has an 
``escalate to de-escalate'' policy in which it would threaten or 
possibly use nuclear weapons first on a limited basis in crises or at 
lower levels of conflict. Russia disputes this characterization of its 
doctrine. Further, Lt. Gen. Robert Ashley, director of the Defense 
Intelligence Agency, told the Senate Select Committee on Intelligence 
in January that a Russian decision to use nuclear weapons first, on a 
limited basis or otherwise, would be driven by ``the threshold they 
think the Kremlin would be at risk.'' Do you agree with General 
Ashley's assessment? If not, why not?

    Answer. On May 29, 2019, Lt. Gen. Ashley publicly described Russian 
nuclear doctrine and policy as follows: ``Russia's large and diverse 
stockpile facilitates a doctrine that envisions the potential coercive 
use of nuclear weapons. Russia assesses that the threat of nuclear 
escalation or actual first use of nuclear weapons would serve to `de-
escalate' a conflict on terms favorable to Russia. Russian defense 
officials have spoken publicly about `de-escalating' a conflict through 
limited nuclear use and it is a fact that the Russian military has 
prepared plans and is well trained to transition rapidly to nuclear use 
in order to compel an end to a conventional conflict.'' I agree with 
this assessment and can make additional detail available in a 
classified forum.

    Question. The 2018 Nuclear Posture Review states that Russia has an 
``escalate to de-escalate'' policy in which it would threaten or 
possibly use nuclear weapons first on a limited basis in crises or at 
lower levels of conflict. Russia disputes this characterization of its 
doctrine. Further, Lt. Gen. Robert Ashley, director of the Defense 
Intelligence Agency, told the Senate Select Committee on Intelligence 
in January that a Russian decision to use nuclear weapons first, on a 
limited basis or otherwise, would be driven by ``the threshold they 
think the Kremlin would be at risk.'' Is it your position that this 
constitutes an ``escalate to de-escalate'' nuclear doctrine?

    Answer. On May 29, 2019, Lt. Gen. Ashley publicly described Russian 
nuclear doctrine and policy as follows: ``Russia's large and diverse 
stockpile facilitates a doctrine that envisions the potential coercive 
use of nuclear weapons. Russia assesses that the threat of nuclear 
escalation or actual first use of nuclear weapons would serve to `de-
escalate' a conflict on terms favorable to Russia. Russian defense 
officials have spoken publicly about `de-escalating' a conflict through 
limited nuclear use and it is a fact that the Russian military has 
prepared plans and is well trained to transition rapidly to nuclear use 
in order to compel an end to a conventional conflict.'' I believe Lt. 
Gen. Ashley's assessment describes an ``escalate-to-deescalate'' 
doctrine, and his description is consistent with the text of the 2018 
Nuclear Posture Review.



                                  <all>
</pre></body></html>
